                      ort




           DEFENSE INFORMATION SYSTEMS AGENCY
                MEGACENTER CONSOLIDATION



Report No. 98-159                         June 22, 1998




              Office of the Inspector General
                  Department of Defense
 Additional Information     and Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector General, DOD
 Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions   for Audits

 To suggest ideas for or to request future audits, contact the Planning and Coordination
 Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;          or
 by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.      The
 identity of each writer and caller is fully protected.




Acronyms

BRAC                  Base Realignment and Closure
BTU                   British Thermal Unit
DISA                  Defense Information Systems Agency
DMC                   Defense Megacenter
FEMA                  Federal Emergency Management Agency
IBM                   International Business Machines
KVA                   Kilovolt-Amperes
ROSC                  Regional Operations and Security Center
SMART                 Strategy for Mainframe and Regional Transition
                              INSPECTOR     GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                             June 22,199s

MEMORANDUM         FOR DIRECTOR,       DEFENSE INFORMATION           SYSTEMS
                       AGENCY

SUBJECT:      Audit Report on Defense Information     Systems Agency Megacenter
              Consolidation (Report No. 98-159)


        We are providing this audit report for your information and use. The Deputy
Secretary of Defense requested that we conduct this audit to review the issues raised by
Senator Tom Harkin, Iowa, concerning certain aspects of the Defense Information
Systems Agency megacenter consolidation. Because this report contains no
recommendations,   no written comments were required, and none were received.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Wayne K. Million at (703) 604-93 12 (DSN 664-93 12) or
Mr. Nicholas E. Como at (703) 604-9215 (DSN 664-9215). See Appendix Q for the
report distribution. The audit team members are listed inside the back cover.




                                           Robert f Lieberman
                                       Assistant Inspector General
                                               for Auditing
                           Office of the Inspector General, DOD
Report No. 98-159                                                            June 22,1998
   Project No. 8CG-5017

                          Defense Information Systems Agency
                               Megacenter Consolidation

                                  Executive Summary

Introduction. The Deputy Secretary of Defense requested this audit to review issues
raised by Senator Tom Harkin, Iowa, concerning the Defense Information Systems
Agency megacenter consolidation.     Specifically, Senator Harkin was concerned that
errors were made in applying the Defense Information Systems Agency criteria, which
resulted in certain megacenters receiving higher than appropriate scoring, and to what
extent the Defense Megacenter Rock Island, Illinois, might have been given a lower than
appropriate score. A total of 13 issues were raised. Congressman Jim Leach also
expressed interest in this matter.

Audit Objectives.    The audit objective was to review the specific issues raised by
Senator Harkin.

Audit Results. The specific concerns raised by Senator Harkin regarding the Defense
megacenter consolidation could not be substantiated, although we found other errors.

The Defense Information Systems Agency did not obtain accurate and consistent data, in
all cases, to determine scores for the megacenter consolidation. Management controls did
not ensure a correct scoring. New scoring, using data validated by our audit, resulted in a
change in the rankings. However, the originally ranked top five megacenters remained in
the top five ranking. Defense Megacenter Rock Island remained as the sixth ranked
megacenter.

The Defense Information Systems Agency acknowledged the data errors disclosed by our
audit and revised the scoring accordingly. The agency recomputed the overall ranking
for the six megacenters included in our review. The processing megacenters originally
ranked as the top five remained in the top five ranking. Defense Megacenter Rock Island
remained as the sixth ranked megacenter. Therefore, no recommendation was made to
amend the currently approved consolidation plan.

Management Comments. We provided a draft of this report on June 1,1998. Because
this report contains no recommendations,  written comments were not required, and none
were received. Therefore, we are publishing this report in final form.
Table of Contents

Executive Summary                                                               i


Part I - Audit Results
      Audit Background
      Audit Objectives
      Management Controls Over Scoring Procedures of DISA Megacenters

Part II - Additional Information
     Appendix A. Audit Process
        Scope                                                              16
        Methodology                                                        16
        Management Control Proeram                                         17
     Appendix B. Request Fro&Senator Harkin’s Office Regarding DMC
                    Rock Island                                            18
     Appendix C. Responses to Issues Raised by Senator Harkin’s Office     20
     Appendix D. Glossary of SMART Plan Criteria                           36
     Appendix E. Estimate for Preparing East Wing of Building 3900 at
                    DMC Oklahoma City                                      38
     Appendix F. Mainframe Computer Delivery Lead Times                    40
     Appendix G. Inspector General DOD Engineering Analysis                45
     Appendix H. Memorandum on Concrete Sealant Specifications for DMC
                    Oklahoma City                                          46
     Appendix I. Concrete Sealant Specifications for DMC Oklahoma City
                    (April 1992)                                           47
     Appendix J. Excerpts from Interservice Support Agreement, DMC
                    Ogden and Hill AFB                                     48
     Appendix K. Percentage of Utility Costs Paid by Tenants of Building
                    891 at DMC Ogden                                       51
     Appendix L . Memorandum Regarding Primary Occupancy of Building
                    891 at DMC Ogden                                       52
     Appendix M. DMC Columbus Organization Chart
     Appendix N. Mission and Functions Statement for ROSC Columbus         2:
     Appendix 0. Excerpts from Interservice Support Agreement, DMC Rock
                    Island and Rock Island Arsenal
     Appendix P. Memorandum Regarding Space at DMC Rock Island             ::
     Appendix Q. Report Distribution                                       59
Part I - Audit Results
Audit Background

     The Deputy Secretary of Defense requested that we review the issues raised by
     Senator Tom Harkin, Iowa, concerning certain aspects of the Defense Information
     Systems Agency (DISA) megacenter consolidation.       Senator Harkin raised issues
     with the consistency of scores applied to rank the megacenters. The issues
     involved Defense Megacenters (DMCs) Rock Island, Illinois; Oklahoma City,
     Oklahoma; Ogden, Utah; Columbus, Ohio; and St. Louis, Missouri. Specifically,
     Senator Harkin questioned the allocation of DMC space, power and air
     conditioning capacities, and associated costs to upgrade one of the megacenters to
     the level required by DISA criteria contained in the Strategy for Mainframe and
     Regional Transition (SMART) plan, DISA’s megacenter consolidation plan.
     Congressman Jim Leach also expressed interest in this matter.



Audit Objectives

     The audit objective was to review the specific issues raised by Senator Harkin
     concerning certain aspects of the DISA megacenter consolidation.     See
     Appendix A for a discussion of the audit process.




                                          2
           Management Controls Over Scoring
           Procedures of DISA Megacenters
           The specific issues raised by Senator Harkin could not be substantiated.
           However, DISA did not have adequate management controls to obtain
           accurate and consistent data, in all cases, to determine numerical scores
           for the megacenter consolidation rankings. DISA applied the results of
           our audit to formulate updated scores for the consolidation.   The new
           scoring resulted in a change in the rankings. However, the processing
           megacenters originally ranked as the top five remained in the top five
           ranking. DMC Rock Island remained as the sixth ranked megacenter, and
           its numerical score dropped after errors disclosed during the audit for the
           six megacenters we reviewed were corrected.



DISA Megacenter Consolidation              Strategy

    Background. DISA implemented the SMART plan in December 1997 to
    consolidate DOD mainframe data processing centers from 16 DMCs to 6. Five
    megacenters will provide International Business Machines (IBM) mainframe
    processing and two of the five megacenters will also provide UNISYS mainframe
    processing. The remaining site will provide UNISYS mainframe processing only.
    Since the announcement of the SMART plan, the process used by DISA for the
    selection of the megacenters to consolidate has been challenged by the
    Congressional delegations representing the workforce at DMC Rock Island. A
    complete listing of the issues raised by Senator Harkin is included in Appendix B
    and our response to the issues is contained in Appendix C.

    Criteria for Megacenter Scoring. The criteria for scoring the DISA processing
    centers was originally established for use in implementing the 1993 Defense Base
    Realignment and Closure (BR4C) decisions. During the 1993 BRAC, DISA
    consolidated 59 information processing centers into 16 DMCs. DISA revised the
    criteria in November 1994 for participation in the 1995 BR4C process.
    Specifically, DISA eliminated communications bandwidth, chilled water,
    communications diversity, and proximity to a fiber optic hub as criteria used to
    score the megacenters. To obtain current and valid facility baseline data, DISA
    contracted with an engineering firm, Brown and Root, Incorporated, Houston,
    Texas, in 1994 to perform a facility baseline survey to verify and update the 1993
    baseline study for the 16 megacenters and thoroughly evaluate the actual
    condition of the 16 megacenter facilities. Subsequent to the Brown and Root
    survey, DISA decided not to participate in B&W 1995. However, the criteria
    established for BR4C 1995 was included verbatim in the SMART plan. See
    Appendix D for a glossary containing the definitions of criteria that DISA used to
    rank the megacenters for this consolidation.
Management   Controls Over Scoring Procedures of DISA Megacenters



DISA Megacenter Criteria

      The issues raised by Senator Harkin involved DMCs Rock Island, Illinois;
      Oklahoma City, Oklahoma; Ogden, Utah; Columbus, Ohio; and St. Louis,
      Missouri. We visited these megacenters as well as the remaining megacenter,
      DMC Mechanicsburg, Pennsylvania, that were originally ranked by DISA as the
      top six megacenters which conducted IBM mainframe processing. DISA applied
       12 criteria to rank all 16 megacenters for the site consolidation selection process
      in the SMART plan. For the 6 megacenters that we visited, we validated the data
      for the 12 criteria included in the SMART plan. Three criteria (locality pay,
      disaster vulnerability, and building condition) were validated with source
      documents as discussed in Appendix A. We did not find any discrepancies
      between the SMART plan data and reported scores for locality pay, disaster
      vulnerability, and building condition. Discussions of variations between the
      SMART plan data and our audit results for 9 of the 12 criteria at the
      6 megacenters that we reviewed follow.

      DMC Oklahoma City. For the nine criteria we reviewed at DMC Oklahoma
      City, there were minor variations between the SMART plan data and our audit
      results for three of the criteria as shown in Table 1.


              Table 1. Comparison of Audit Results to SMART Plan Data
                                 DMC Oklahoma City

                                           SMART Plan
                   Criteria                   Data           Audit Results        Variation
       Usable Space’.*                          66,732            66,732
       Conditioned Space*                       64,283            64,283                 :
       Easily Convertible Space*
       Other Convertible Space’                  2,44;             2,44:                 :
       Contiguous Space*                        64,283            64,283
       Air Conditioning3                        16,800            16,800                 :
       Electrical Service Feed4                  6,000             5,000          (; 3;;;)
       Aggregate Regulated Power4                4,000             5,000
       Back Up Power4                            6,000             5,000          (l:ooo)

       ‘Usable space = conditioned   space + easily convertible   space + other
        convertible space.
       *Measured in square feet.
       3Measured in BTU/l ,000.
       4Measured in KVA.


              Electrical Service Feed. We verified the faceplate for each of the
     two electrical transformers at DMC Oklahoma City. The faceplate showed that
     the rated capacity of each transformer was 2,500 kilovolt-amperes (KVA), for a
     total of 5,000 KVA. In addition, we obtained manufacturer specifications that
     confirmed the rated capacity.


                                            4
        Management      Controls Over Scoring Procedures of DISA Megacenters



        Aggregate Regulated Power. We verified the faceplate for each of the
five aggregate regulated power modules (uninterruptible power supply modules)
at DMC Oklahoma City. We obtained the manufacturer specifications on each
module, which confirmed that each module had 1,000 KVA, for a total of
5,000 KVA. In addition, we confirmed that all five modules were in operation.

        Back Up Power. We verified the electrical service feed to be 5,000 KVA
and that the two transformers at DMC Oklahoma City were backed up by an
automatic transfer switch from two separate utility feeds. If one transformer fails,
the other automatically backs up the electrical power. Therefore, back up power
should be equal to the electrical service feed of 5,000 KVA.

DMC Rock Island. Of the nine criteria we reviewed at DMC Rock Island, there
was a major variation between the SMART plan data and our audit results for
one criteria and minor variations between the SMART plan data and our audit
results for two other criteria. Because there were variations between the SMART
plan data and our audit results for easily convertible space and other convertible
space, usable space also varied. Table 2 displays the variations.

          Table 2. Comparison      of Audit Results to SMART Plan Data
                                  DMC Rock Island

                                    SMART Plan
             Criteria                  Data             Audit Results        Variation
 Usable Space’>2                      114,534               58,091           WW;)
 Conditioned Space2                    40,213               40,213
 Easily Convertible Space’             14,131               17,878             3,747
 Other Convertible Space2              60,190                     0          (60,19;)
 Contiguous Space’                     40,213               40,213
 Air Conditioning3                     11,880               14,406             2,526
 Electrical Service Feed4               9,200                9,200
 Aggregate Regulated Power4             2,800                2,800                  :
 Back Up Power4                         9,200                9,200                  0

 ‘Usable space = conditioned   space + easily convertible   space + other convertible
 2space.
  Measured in square feet.
 3Measured in BTU/l ,000.
 4Measured in KVA.


         Easily Convertible Space. The SMART plan criteria provides limitations
on convertible space. It states that space must be part of the main DMC building
and must be space that is currently paid for by the DMC. The SMART plan
criteria defines easily convertible space as “convertible space in the primary
megacenter facility which is contiguous to conditioned space, requires little or no
demolition, and represents a minor cost for conversion to conditioned space.” We
verified 3,747 square feet in room 109 using “as-built” drawings prepared by the
Rock Island Arsenal Directorate of Public Works. This space was assigned to
DMC Rock Island and had not been included as easily convertible space in the

                                      5
Management   Controls Over Scoring Procedures of DISA Megacenters



      SMART plan. A Rock Island Arsenal, March lo,1998 memorandum regarding
      occupancy of building 350 states that approximately 4,000 square feet (actually
      3,747 square feet) of space in room 109 was allocated to the Defense Information
      Technology Services Organization (presently known as DISA) in 1993. Room
      109 is assigned to DMC Rock Island; however, another tenant of Rock Island
      Arsenal presently occupies the space. The memorandum further states that a
      “quid pro quo” agreement between the tenant occupying room 109 and DISA
      exists allowing the tenant to temporarily use the space. We verified that this
      space met the SMART plan criteria for easily convertible space. Therefore, the
      3,747 square feet of space in room 109 should be counted as easily convertible
      space for DMC Rock Island.

              Other Convertible Space. The SMART plan further defines convertible
     space as “space where an 18-inch raised floor can be installed with a minimum
     floor to ceiling height of 7.5 feet without structural changes.” The 60,190 square
     feet, categorized as other convertible space in the SMART plan for DMC Rock
     Island, was administrative offices and Systems Management Center space. We
     measured the floor to ceiling height of the administrative areas and the Systems
     Management Center space on the second floor of building 350. The floor to
     ceiling height was 8 feet in all of the administrative areas we measured and the
     Systems Management Center space was 8 feet 4 inches. The minimum required
     floor to ceiling space would have to be at least 9 feet in order to install an 18-inch
     raised floor. Raising the dropped ceiling to accommodate installing an 18-inch
     raised floor and still have a 7.5 foot area from the raised floor to the dropped
     ceiling would entail reworking the fire protection system, air conditioning duct
     work, and electrical lighting. Reworking the dropped ceiling is considered a
     structural change, which is not in accordance with the SMART plan definition of
     other convertible space.

             Air Conditioning.  We obtained a March 10, 1998, memorandum from
     the U.S. Army Corps of Engineers, that stated 14,406,OOO British Thermal Units
     (BTUs) of air conditioning is dedicated and available to DMC Rock Island.

     DMC Ogden. Of the nine criteria we reviewed at DMC Ogden, there were major
     variations between the SMART plan data and our audit results for three criteria,
     and minor variations between the SMART plan data and our audit results for two
     other criteria. Because there were variations between the SMART plan data and
     our audit results for easily convertible space and other convertible space, usable
     space also varied. Table 3 displays the variations.




                                            6
       Management       Controls Over Scoring Procedures of DISA Megacenters



 Table 3. Comparison       of Audit Results to SMART Plan Data DMC Ogden

                                    SMART Plan
             Criteria                  Data           Audit Results          Variation
 Usable Spacell                           81,322            108,512           27,190
 Conditioned Space2                       40,428             40,428                 0
 Easily Convertible Space2                40,894             56,442           15,548
 Other Convertible Space2                                    11,642           11,642
 Contiguous Space’                        28,99!!            40,428           11,435
 Air Conditioning3                        13,200             14,520            1,320
 Electrical Service Feed4                  7,000              7,500              500
 Aggregate Regulated Power4                2,500              2,500                 0
 Back Up Power4                            6,375              6,375                 0

 ‘Usable space = conditioned   space + easily convertible    space + other
  convertible space.
 2Measured in square feet.
 3Measured in BTU/l ,000.
 4Measured in KVA.

         Easily Convertible Space. DMC Ogden installed an additional electrical
service feed transformer with a 2,500 KVA capacity in 1997, bringing the total
electrical service feed to 7,500 KVA. The additional electrical service feed
capacity of 2,500 KVA increased the easily convertible space that could be
supplied by the existing utilities. We identified an additional 15,548 square feet
of easily convertible space at DMC Ogden using “as-built” drawings prepared by
FFKR Architects/Planner II. The additional electrical service feed capacity can
support the additional space.
         Other Convertible Space. As stated in the paragraph above, the
additional electrical service feed directly impacted the area of convertible space
that could be supplied by the available utilities. We also used the “as-built”
drawings to identify 11,642 square feet that had not been previously counted as
other convertible space at DMC Ogden. Because of the increase in electrical
service feed capacity, the additional square footage can be considered for DMC
Ogden as other convertible space.
        Contiguous Space. The SMART plan defines contiguous space as
“space within the conditioned space which is contiguous either vertically or
horizontally.” The 40,428 square feet of conditioned space was also contiguous.
We verified a horizontal conduit cable connecting the main computer room to the
remainder of the conditioned space.
          Air Conditioning.    We verified six air conditioning units at DMC Ogden.
Two units had a rated capacity of 400 tons each; three units had a rated capacity
of 100 tons each; and one unit had a rated capacity of 110 tons, for a total of
 1,2 10 tons. The air conditioning unit with a 11 O-ton rated capacity had been
omitted from the air conditioning requirements for DMC Ogden in the SMART
plan. This 1 lo-ton air conditioning unit equates to 1,320,OOO BTUs. Thus, the
total air conditioning capacity at DMC Ogden should have been 14,520,OOO
BTUs.

                                      7
Management   Controls Over Scoring Procedures of DISA Megacenters



               Electrical Service Feed. We verified the rated KVA capacity from the
      faceplate of each of the three electrical transformers at DMC Ogden. The
      faceplate showed that the rated capacity of each transformer was 2,000; 3,000;
      and 2,500 KVA, respectively, for a total of 7,500 KVA. Manufacturer
      specifications for the transformers were not available.

      DMC Columbus. Of the nine criteria we reviewed at DMC Columbus, there was
      a major variation between the SMART plan data and our audit results for
      one criteria and minor variations between the SMART plan data and our audit
      results for six other criteria. Because there were variations between the SMART
      plan data and our audit results for conditioned space, easily convertible space, and
      other convertible space, usable space also varied. Table 4 displays the variations.


              Table 4. Comparison     of Audit Results to SMART Plan Data
                                      DMC Columbus

                                         SMART Plan
                  Criteria                  Data             Audit Results        Variation
       Usable Spaceiv2                     86,463                 70,820
       Conditioned Space2                  67,688                 65,134
       Easily Convertible Space’            5,643                  5,686
       Other Convertible Space’            13,132                       0
       Contiguous Space2                   67,688                 65,134
       Air Conditioning3                   15,360                 14,400
       Electrical Service Feed4             6,000                  6,000
       Aggregate Regulated Power4           4,688                  3,750             (;;;I
       Back Up Power4                       3,750                  4,690

       ‘Usable space = conditioned   space + easily convertible   space + other
        convertible space.
       2Measured in square feet.
       3Measured in BTU/l ,000.
       4Measured in KVA.


              Conditioned Space. We used “as-built” drawings prepared by the U.S.
      Army Corps of Engineers to verify 65,134 square feet of conditioned space in
      building 23 at DMC Columbus. We confirmed these measurements with DMC
      Columbus facilities personnel.

              Easily Convertible Space. We also used the “as-built” drawings
      prepared by the U.S. Army Corps of Engineers to verify 5,686 square feet of
      easily convertible space in building 23. DMC Columbus facilities personnel also
      confirmed these measurements.

              Other Convertible Space. DMC Columbus facilities personnel
      double-counted 13,132 square feet of conditioned space as both conditioned space
      and other convertible space. The 13,132 square feet of space meets the SMART
      plan criteria for conditioned space. DMC Columbus facilities personnel
      acknowledged the double-counting error.

                                            8
       Management        Controls Over Scoring Procedures of DISA Megacenters



         Contiguous Space. We verified that there was only 65,134 square feet of
conditioned space at DMC Columbus, which was both horizontally and vertically
contiguous.

         Air Conditioning. We verified three air conditioning units with a rated
capacity of 400 tons each, for a total of 1,200 tons. The manufacturer
specifications for the air conditioning units confirmed the rated capacity of
400 tons each. The 1,200-ton air conditioning capacity equates to
14,400,OOO BTUs.

        Aggregate Regulated Power. We verified the faceplate for each of the
five aggregate regulated power modules (uninterruptible power supply modules)
at DMC Columbus. We obtained the manufacturer specifications on each
module, which confirmed that each module had 750 KVA each, for a total of
3,750 KVA.

         Back Up Power. We verified the faceplate and the manufacturer
specifications for each of the five generators at DMC Columbus. Each generator
had a rated capacity of 938 KVA, for a total of 4,690 KVA.

DMC Mechanicsburg.         Of the nine criteria we reviewed at DMC
Mechanicsburg, there were major variations between the SMART plan data and
our audit results for two criteria and minor variations between the SMART plan
data and our audit results for two other criteria. Because there were variations
between the SMART plan data and our audit results for conditioned space and
easily convertible space, usable space also varied. Table 5 displays the variations.


         Table 5. Comparison of Audit Results to SMART Plan Data
                           DMC Mechanicsburg

                                      SMART Plan
              Criteria                   Data                Audit Results     Variation
 Usable Space”*                            60,682               65,05 1          4,369
 Conditioned Space’                        49,682               48,735            (947)
 Easily Convertible Space’                 11,000               16,316           5.316
 Other Convertible Space*                        0                    0
 Contiguous Space*                         49,682               48,735            (94;)
 Air Conditioning3                         14,500               18,000           3,500
 Electrical Service Feed4                   7,500                7,500
 Aggregate Regulated Power4                 3,750                3,750                :
 Back Up Power4                             7,500                7,500                0

 ‘Usable space = conditioned    space + easily convertible     space + other
  convertible space.
 *Measured in square feet.
 3Measured in BTU/l ,000.
 4Measured in KVA.




                                       9
Management   Controls Over Scoring Procedures of DISA Megacenters



              Conditioned Space. We verified only 48,735 square feet of conditioned
      space in building 308 using DMC Mechanicsburg aperture drawings. DMC
      Mechanicsburg facilities personnel confirmed these measurements.

               Easily Convertible Space. The SMART plan states that convertible
      space must be space where an 18-inch raised floor can be installed with a
      minimum floor to ceiling height of 7.5 feet without structural changes. We
      used the DMC Mechanicsburg aperture drawings to verify the square footage
      of easily convertible space in building 308. There were three rooms, totaling
      16,3 16 square feet of easily convertible space. The tape room, totaling
      6,8 16 square feet, had a 12-inch raised floor and 8 feet of space between the
      raised floor and the dropped ceiling. The electronic accounting machine room
      and automated tape library room, totaling 4,000 and 5,500 square feet
      respectively, had a 6-inch raised floor and 9 feet 10 inches of space between the
      raised floor and dropped ceiling. In addition, these rooms had provisions for air
      conditioning and power distribution. The three rooms met the criteria for easily
      convertible space for a total of 16,3 16 square feet. DMC Mechanicsburg facilities
      personnel also confirmed these measurements.

               Contiguous Space. We verified that the 48,735 square feet of
      conditioned space in building 308 was also contiguous. The configuration of
      building 308 is such that the area of conditioned space is situated in one area and
      is horizontally contiguous.

               Air Conditioning.    We verified that DMC Mechanicsburg had three air
      conditioning units with a rated capacity of 450 tons each, for a total of 1,350 tons.
      In addition, we verified an additional air conditioning unit with 150 tons capacity
      for a grand total of 1,500 tons in building 308. The manufacturer specifications
      for the air conditioning units confirmed the rated capacities. The 1,500 tons air
      conditioning capacity equates to 18,000,OOO BTUs.

      DMC St. Louis. Of the nine criteria we reviewed at DMC St. Louis, there were
      major variations between the SMART plan data and our audit results for two of
      the criteria and minor variations between the SMART plan data and our audit
      results for three other criteria. Because there were variations between the
      SMART plan data and our audit results for easily convertible space and other
      convertible space, usable space also varied. Table 6 displays the variations.




                                            10
       Management       Controls Over Scoring Procedures of DISA Megacenters



         Table 6. Comparison     of Audit Results to SMART Plan Data
                                 DMC St. Louis

                                     SMART Plan
             Criteria                   Data            Audit Results       Variation
 Usable Space’T2                       107,128              108,278           1,150
 Conditioned Space2                     24,737               24,737
 Easily Convertible Space’              40,304               40,238             (6:)
 Other Convertible Space2               42,087               43,303           1,216
 Contiguous Space’                      24,737               24,737
 Air Conditioning3                      29,040               29,508             46:
 Electrical Service Feed4                7,000               12,500           5,500
 Aggregate Regulated Power4              3,675                3,675                0
 Back Up Power4                          7,000               12,500           5,500

 ‘Usable space = conditioned   space + easily convertible   space + other
  convertible space.
 2Measured in square feet.
 3Measured in BTU/l ,000.
 4Measured in KVA.


         Easily Convertible Space. We used “as-built” drawings prepared by
Calcara, Duffendack, Foss, Manlove, Inc. and revised by the General Services
Administration to verify 40,238 square feet of easily convertible space in
building 103 at DMC St. Louis. DISA had incorrectly included a stairwell,
totaling 66 square feet, as easily convertible space for DMC St. Louis. The
SMART plan states that stairways should not be counted as convertible space.
DMC St. Louis facilities personnel also confirmed these measurements.

         Other Convertible Space. We also used the “as-built” drawings to
identify 43,303 square feet of other convertible space in building 103. There were
three rooms in building 103 that had not been previously counted by DISA that
had more than 9 feet of space from the concrete floor to the dropped ceiling.
DMC St. Louis had previously used these rooms as offices, but the rooms were
currently being used for storage of office equipment. These three rooms should
have been counted as other convertible space, bringing the total for other
convertible space to 43,303 square feet.

         Air Conditioning. We verified seven air conditioning units with a total
rated capacity of 2,459 tons. Four units had a rated capacity of 600 tons each,
two units had a rated capacity of 27 tons each, and one unit had a rated capacity
of 5 tons. We obtained the manufacturer specifications for the seven air
conditioning units, which confirmed the rated capacities. The 2,459 tons air
conditioning capacity equates to 29,508,OOO BTUs.

         Electrical Service Feed. We verified the rated KVA capacity from the
faceplate of each of the seven transformers at DMC St. Louis. The faceplates
showed that two transformers had a rated capacity of 2,500 KVA each; three
transformers had a rated capacity of 2,000 KVA each; and two transformers had a


                                     11
Management   Controls Over Scoring Procedures of DISA Megacenters



      rated capacity of 750 KVA each, for a total electrical service feed of
      12,500 KVA. Manufacturer specifications for the transformers were not
      available.

               Back Up Power. We verified that all seven transformers at DMC St.
      Louis were backed up by an automatic transfer switch from two separate utility
      feeds. If one transformer fails, the other transformers automatically back up the
      electrical power. Therefore, back up power at DMC St. Louis should be equal to
      the electrical service feed of 12,500 KVA.



Management        Controls Over DNA Megacenter Scoring

      Prior Inspector General, DOD, Reports Addressing DISA Management
      Controls. Inspector General, DOD, Report No. 95-065, “Defense Information
      Systems Agency Implementation of the Internal Control Plan for the 1995
      Defense Base Realignment and Closure Data Collection Process,” December 30,
      1994, addresses DISA management controls for data collection. Specifically, the
      report states, that during the BRAC 1995 data collection process, DISA had not
      approved and implemented its draft internal control plan, but had begun to collect
      data that could be used to support a 1995 BRAC decision. Collecting data to
      support a BRAC decision without an approved management control plan was not
      in accordance with required procedures for the 1995 BRAC process. The report
      further states that a management (internal) control plan would ensure adequate
      organization, documentation, and data control during all phases of the 1995
      BRAC process. The report recommended that DISA approve and implement an
      internal control plan for its data collection and analysis process for BRAC 1995
      and discontinue any fwther data analysis until the analysis is accomplished with
      an approved, unbiased process outlined in the draft internal control plan. DISA
      concurred with the audit recommendations.

      Inspector General, DOD, Report No. 95-120, “Defense Information Systems
      Agency Verification of the 1995 Defense Base Realignment and Closure Data
      Elements and Ranking Procedure,” February 17, 1995, again addresses
      management controls for data collection. DISA elected not to participate in the
      BRAC 1995 process. However, the agency requested that the Inspector General,
      DOD verify the accuracy of the data elements and the consistency of the
      application of the computer facility ranking procedures that would have been the
      basis for a formal submission to the Secretary of Defense (recommending DMC
      closures in BIUC 1995). The report states that DISA accurately and consistently
      collected and analyzed the facilities, cost, and computer utilization data that they
      intended to use to support a BRAC 1995 decision. The report also states that
      DISA properly implemented a computer algorithm and weighted selection criteria
      that were used to rank its computer facilities. However, the audit identified errors
      in contractor-generated  information that was used in the development of space
      renovation costs. During the audit, DISA corrected contractor errors noted and no
      further action was recommended or required.




                                           12
             Management    Controls Over Scoring Procedures of DISA Megacenters



Conclusion

     DISA collected data listed in the SMART plan in accordance with its
     management control plan certification procedures. However, DISA did not have
     adequate management controls to obtain accurate and consistent data, in all cases,
     for input to the ranking process. The variations between the data used in the
     SMART plan and our audit results were discussed and resolved with DISA
     management during April and May 1998. DISA agreed with all of our audit
     results and revised the input for the criteria in the SMART plan for the
     megacenters accordingly. DISA then recomputed the overall ranking for the
     megacenters included in our review. The processing megacenters originally
     ranked as the top five, remained in the top five ranking. DMC Rock Island
     remained as the sixth ranked megacenter, and its numerical score dropped because
     of criteria errors disclosed during the audit for the six megacenters we reviewed.
     The consolidation plan variations between prior audit numerical scores and post
     audit numerical scores ranged between 1.58 and 4.8 1 points. The next mainframe
     processing megacenter below DMC Rock Island would need at least 7.7 points to
     be considered as one of the top five ranked megacenters. No recommendation
     was made to amend the currently approved consolidation plan.




                                         13
Part II - Additional Information
Appendix A. Audit Process

Scope
        Work Performed. We reviewed issues raised by Senator Harkin concerning the
        realignment of the Rock Island megacenter. The issues involved application of
        criteria for DMCs Oklahoma City, Rock Island, Ogden, Columbus, and St. Louis.
        See Appendix C for the specific issues and our conclusions. We also reviewed
        space and power capacities at the megacenters originally ranked as the top 5, plus
        DMC Rock Island. We validated that the correct data for each of the 12 criteria at
        the 6 megacenters we reviewed was correctly input into the DISA computer
        algorithm.

        We visited the five megacenters that contained issues raised by Senator Harkin as
        well as the remaining megacenter (DMC Mechanicsburg), that were originally
        ranked by DISA as the top six megacenters. The top five megacenters were
        Mechanicsburg, St. Louis, Oklahoma City, Columbus, and Ogden. DMC Rock
        Island was the sixth ranked megacenter.

        DISA applied the 12 criteria in the SMART plan to rank the 16 megacenters for
        the site selection process. We validated 9 of the 12 criteria involving usable space
        and power capacities included in the SMART plan. The remaining three criteria
        were validated as follows. Locality pay was validated with locality pay rates
        provided by the Office of Personnel Management for calendar year 1997.
        Disaster vulnerability was validated with a study obtained from the Federal
        Emergency Management Agency (FEMA), which ranked standard metropolitan
        statistical areas in accordance with a derived scale of disaster vulnerability as of
         1994. In addition, we contacted FEMA and discussed the accuracy of the study.
        The score for building condition, as determined by the Brown and Root,
        Incorporated 1994 facility baseline survey, was used unchanged by DISA in the
        SMART plan analysis and we accepted the Brown and Root, Incorporated facility
        baseline survey for purposes of our audit.

        Limitations to Audit Scope. We did not validate the computational aspects of
        the computer algorithm used by DISA to rank the megacenters. We were unable
        to obtain background data for the FEMA disaster vulnerability study and therefore
        were unable to verify the vulnerability scores for the specific locations.


Methodology
        Use of Technical Assistance. An Inspector General, DOD engineer visited DMC
        Oklahoma City and reviewed provisions for air conditioning and power
        distribution.

        Audit Type, Dates, and Standards. This requested audit was performed from
        February 1998 through May 1998 in accordance with auditing standards issued by
        the Comptroller General of the United States as implemented by the Inspector
        General, DOD. We did not use computer-processed     data to perform this audit.

                                             16
                                                           Appendix A. Audit Process



    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD and FEMA. We also visited or contacted architect and
    engineer contractors as well as electrical, mechanical, and structural engineering
    contractors applicable to the facilities reviewed. Further details are available
    upon request.



Management      Control Program

    DOD Directive 50 10.38, “Management Control (MC) Program” dated August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the DISA management controls over the collection of data which was
    included in the SMART plan for the DMC consolidation.   Specifically, we
    reviewed the accuracy of the SMART plan data that had been certified by each
    megacenter director.

    Adequacy of Management Controls. We identified a material management
    control weakness for DISA as defined by DOD Directive 5010.38. DISA did not
    obtain accurate and consistent data, in all cases, to determine numerical scores for
    the megacenter consolidation. Management controls implemented by DISA did
    not ensure the correct scoring for the megacenter consolidation.   Based on our
    audit results, DISA recomputed the overall ranking for the megacenters.

    Adequacy of Management’s Self-Evaluation.         We did not review the
    self-evaluation aspect of the management control program as it relates to the
    principal audit objectives because it was outside the scope of the audit request.




                                         17
Appendix B. Request From Senator Harkin’s
Office Regarding DMC Rock Island


    Scope   of    requested   study:

    The delegation    is looking          for a narrow scope study specifically
    to determine   the extent          to which certain   errors   made in applying
    the criteria   resulted     in      certain  megacenters   receiving  higher
    than appropriate     scoring        and to what extent was Rock Island       given
    a lower than appropriate             score

    The delegation   expects       that this analysis  can be done        in a short
    period  of time, ideally         in less than 3 weeks.

    1) That the allocation      of       conditioned   space   at Oklahoma City   was
    inappropriately   allocated.

    According   to DISA personnel,    the criteria  definitions    was set in
    1994.    They discussed   changing the criteria    afterwards.    But
    returned   to the 1994 criteria    unchanged.   For conditioned    space,
    the following    elements are required:

            A)   it is “immediately   available”     to install   computers
            B)   it can be done “without     additional    investment”
            C)   it has an 18” raised   floor
            D)   it has “provision  for air conditioning        and power cable
                 Distribution.

    In staff  meetings,    DISA staff  first indicated    that conditioned
    space could not have staff      working on it.     That was the case          in
    Oklahoma City.      And, they changed their mind.

    In a meeting with Senator Harkln and Leach, DISA staff             indicated
    that although    chilling    equipment and electrical     equipment that
    was in the computer room was not present          throughout    the rest of
    the facility   designated     as conditioned    space,  it was “stubbed      in”
    under the floor.       They indicated    that the above raised     floor
    equipment could be rolled        in and “plugged    in” implying   that it
    could be installed      within hours at minimal cost.

    In later     correspondence,      we were told that the “without
    additional      investment”     meant that $100,000  per installation.
    And, in discussions         they were not willing   to tell  us what
    “installation”       meant.

    A qualified     engineer   went to Oklahoma City and discovered      that
    chiller    pipe and electrical    equipment was not available      in large
    segments of the designated       space.    And, even if the $100,000
    definition     of cost was acceptable,     which we question,    it still
    could not be met.        He also indicates   that the time requirement
    for installation      would be considerable.     We also question     if
    certain    space at Oklahoma City meets the contiguous        requirement.




                                              18
Appendix B. Request From Senator Harkin’s Office Regarding DMC Rock
                                                                                     Island




 DISA has countered    that new types of computer equipment does not
 require  chiller   water.    Some have questioned    the availability    of
 such equipment.     We believe   that the electrical      support  for such
 computer equipment is not available.         But, in any case,     DISA
 should be held to the criteria       that was supposed to be used to
 judge the space at all facilities        that was in place when Brown
 and Root conducted     their analysis.     Clearly,  chiller    water was a
 requirement    at that time.

 That DISA does not have plans to use the space for computers at
 this time is not relevant.          The criteria     requires    that space meet
 the requirement       for being available     for use under the criteria.
 And, clearly,       under the criteria,    so the appropriate        space should
 be downgraded.        We believe   the downgrading should be to the
 levels    indicated     in Gary Lenhart’s    engineering     report.     It
 indicates     that the cost of upgrading        all of the so called
 conditioned      space to a level     comparable    to the computer now used
 space is $2 million.         And, that specific      areas could not be
 upgraded for use by a single         mainframe for under 5100,000.

  2) Space at Ogden which is not occupied        by DISA should not be
  counted.    It is occupied  by the 75’” Communications        Squadron and
  the Air Force Materials    Systems Group.      At Columbus, counted
  space is being used by the Regional        Control   Center,   not the DMC
  and should not be counted.       If for reasons not apparent        to US,
  these spaces are counted,     similar   space at Rock Island       should be
  counted.    The types of agreements being used to justify           the space
  used at these two sites    is, we are told,      in place at Rock Island.
  Consistency    should demand the counting     of 280,000     square feet of
  space at Rock Xsland as total      available    space.

  31 Space at Rock Island was underrated.         6,600 feet System
  Management Space excluded      at Rock Island should be counted given
  that similar     types of space were counted at Oklahoma City.      Given
  the criteria     explanations  for cost of conversion    and 3800 sq feet
  of   disallowance     of space at Rock Island because it had staff
  working sites     on it, we believe   that space at Rock Island should
  be upgraded.

  41 Erroneous data was used regarding      disaster   vulnerability.
  DISA data shows no federally     declared  disasters    at St. Louis.         We
  believe    the number is, in fact,   14.  It appears that the data           for
  St Cloud Minn, may have been transposed.         That should be
  corrected.




                                       19
Appendix C. Responses to Issues Raised by
Senator Harkin’s Office

Issue 1. The conditioned space at the Oklahoma City
Megacenter was inappropriately allocated.

     Senator Harkin’s offrce contended that:

                According to DISA personnel, the criteria definitions was [were] set in
                1994. They discussed changing the criteria afterwards. But [DISA]
                returned to the 1994 criteria unchanged. For conditioned space, the
                following elements are required:

                A)   it is “immediately available” to install computers
                B)   it can be done “without additional investment”
                C)   it has an 18” raised floor
                D)   it has “provision for air conditioning and power cable distribution.”

    Criteria for Conditioned Space. To participate in the BRAC process, BRAC
    law required a definition of general criteria in selecting military installations for
    closure or realignment for BRAC 1995. DISA established criteria for conditioned
    space in the “1995 BRAC Selection Measures, Definitions, Ranking Weights and
    Ranking Algorithm,” November 2 1, 1994. Paragraph 2.1 of the DISA criteria,
    “Facilities Measures,” defines conditioned space as “a subset of usable space,”
    which is immediately available for installation of computer hardware requiring a
    controlled environment, measured in square feet. As a minimum, such space
    must provide a controlled environment and a raised floor air conditioning plenum
    18 inches or higher above the subfloor with provisions for air conditioning and
    power cable distribution with no additional investment. That criterion was
    included verbatim in the SMART plan Section 4.1, “Site Selection Measures and
    Ranking Process,” Paragraph 2.1, “Facilities Measures,” November 26, 1997.

    Audit Results. Accompanied by DMC Oklahoma City facilities personnel and
    the commercial contractors who directed the electrical and mechanical
    engineering aspects of the construction of building 3900, we verified the
    64,283 square feet of conditioned space in building 3900 at DMC Oklahoma City.
    The 64,283 square feet of conditioned space had a 24-inch raised floor and had
    provisions for air conditioning and power cable distribution. However, 11,578
    square feet of the 64,283 square feet had offrce personnel occupying the space.
    Nominal expenses for relocating those office personnel would be required;
    however, no additional capital investment would be required to make the
    11,578 square feet of space immediately available. The remaining 52,705 square
    feet of conditioned space was immediately available. The following will address
    each criteria of the SMART plan definition of conditioned space to the 11,578
    square feet of space in question at DMC Oklahoma City.

            Immediate Availability of Space to Install Computer Hardware.
    Currently, office personnel occupy the east wing of building 3900 that comprises

                                               20
         Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



11,578 square feet of conditioned space. DISA had not defined a time frame for
“immediately available.” Therefore, we obtained an estimate from the Deputy
Director, DMC Oklahoma City, March 4, 1998, of the approximate timeframe and
costs to prepare the space in question for the installation of computer hardware.
The estimate showed that in-house DISA personnel could disassemble and
remove all furniture modules from the referenced area in less than two weeks.
The work could be accomplished during nonworking hours of operation. In
addition, the estimate showed that expenses for a licensed electrician would be
required to disconnect and reconnect the electrical power, which would take
approximately 40 hours at $40 per hour. Therefore, the average time for
preparing the east wing of building 3900 for installation of computer hardware
could be as much as 3 weeks. See Appendix E for the detailed cost estimate of
time and costs associated with preparing the east wing of building 3900 for
installation of computer hardware.

We also obtained estimated delivery times from the General Services
Administration for four computer (hardware) mainframe vendors that DISA has
contracted with to purchase computer mainframes. The delivery times after
receipt of a computer purchase request ranged between 30 and 180 days. See
Appendix F for the General Services Administration “Schedule Information for
Ordering Agencies” for the four computer mainframe vendors. We obtained this
information to determine whether the time frame for preparing the space in
question was reasonable. Because the time associated with preparing the east
wing of building 3900 is less than the minimum time for computer deliveries of
30 days, we conclude that the space in question is immediately available for the
installation of computer mainframes.

        Without Additional Investment. We did not identify any capital
investment costs required for upgrading the space in question. There were
expenses required to prepare the east wing for installation of computer hardware.
Those expenses included costs to move office equipment from the conditioned
space and associated costs for disassembling and removing all furniture modules
and disconnecting the power. The maximum estimated cost to prepare the east
wing for the installation of computer hardware as provided by DMC Oklahoma
City (see Appendix E) is $1,920. When the office equipment is removed from the
space in question, the space would be ready for the installation of computer
mainframes.

         Conditioned Space Requirement for an l&Inch Raised Floor.
Accompanied by DMC Oklahoma City facilities personnel and the commercial
contractors who directed the electrical and mechanical aspects of the construction
of building 3900, we verified that the entire 11,578 square feet of space in the east
wing of building 3900 had a 24-inch raised floor.

         Provisions for Air Conditioning and Power Distribution. DMC
Oklahoma City facilities personnel and the commercial contractors who directed
the electrical and mechanical aspects of the construction of building 3900 stated
that there already was sufficient air conditioning capacity in the east wing of
building 3900 to support computer mainframe operations. An Inspector General,
DOD electrical engineer visited DMC Oklahoma City during April 22 through 24,
 1998, and reviewed the provisions for air conditioning and power distribution


                                     21
Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



      with DMC facilities technical staff and management. The engineer verified that
      the central plant provided the air conditioning requirements for the entire
      building, including the east wing. The east wing cooling controls were set for
      personnel occupancy.

      Building 3900 has 16,800,OOO BTUs of air conditioning capacity. Brown and
      Root, Incorporated provided the industry conversion factor for the BTU
      requirement per square foot of computer floor space. Based on this conversion
      factor, computer floor space requires air conditioning capacity of 170.7 BTUs per
      square foot. Brown and Root also provided the electrical power requirement
      associated with the air conditioning requirement. Based on the air conditioning
      per square foot requirement of 170.7 BTUs, a computer facility would also
      require at least 3,414 KVA of electric power.

      We computed that building 3900 has air conditioning capacity of 183.6 BTUs per
      square foot (16,800,OOO BTUs/91,502 square feet total space). Therefore, the
      DMC has air conditioning provisions for computer operations for the entire
      building, including the 11,578 square feet in the east wing of the facility. In
      addition, we verified that building 3900 has 5,000 KVA of electric power,
      exceeding the 3,4 14 KVA requirement for electric power.

      The Inspector General, DOD engineer met with the commercial contractors who
      were responsible for the construction and supplemental electrical installations for
      building 3900. The Inspector General, DOD engineer verified the existence of
      nine 4-inch diameter electrical conduits connecting the east and west wings by
      reviewing the conduit runs on the floor plan and visually inspecting the conduit
      run terminations. The conduits are available to provide capacity for additional
      data and power cabling distribution, if required. See Appendix G for the
      Inspector General, DOD engineering analysis for DMC Oklahoma City.




                                           22
              Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 2. Use of certain conditioned space at DMC Oklahoma
City.

     Senator Harkin’s office was concerned that “In staff meetings, DISA staff first
     indicated that conditioned space could not have staff working on it. This was the
     case in Oklahoma City. And they changed their mind.”

     Criteria For Use of Conditioned Space. Neither the 1994 selection measures
     for BIUC 1995 nor the SMART plan criteria contain any prohibitions on the use
     of conditioned space for DISA office personnel. The criterion does not address
     types of megacenter functions or personnel uses of conditioned space.

     Audit Results. The 11,578 square feet of conditioned space in the east wing of
     building 3900 meets all the physical criteria for conditioned space. Neither the
     1994 selection measures for BRAC 1995 nor the SMART plan criteria prohibited
     DISA staff working in an office environment in conditioned space. We based our
     review on SMART plan criteria.




                                         23
Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 3. The presence and availability of chilled water and
electrical equipment and its impact on the designation of
conditioned space.

      Senator Hat-kin’s office was concerned that:

                 In a meeting with Senator Harkin and Leach, DISA staff indicated that
                 although chilling equipment and electrical equipment that was in the
                 [Oklahoma City] computer room was not present throughout the rest of
                 the facility designated as conditioned space, it was ‘stubbed in’ under
                 the floor. They indicated that the above raised floor equipment could
                 be rolled in and ‘plugged in’ implying that it could be installed within
                 hours at minimal cost.

      Audit Results. Chilling equipment (provisions for chilled water) was a BRAC
      1993 criteria for conditioned space. However, this requirement was eliminated in
      Section 4.1, “Site Selection Measures and Ranking Process,” Paragraph 3,
      “Ranking Weights,” of the SMART plan. See Appendix D for a glossary of
      criteria used to rank the megacenters. Accompanied by DMC Oklahoma City
      facilities personnel and the commercial contractors who directed the electrical and
      mechanical aspects of the construction of building 3900, we confirmed that
      electrical equipment was available throughout building 3900, including the
      11,578 square foot area currently being used by office personnel. The Inspector
      General, DOD engineer verified that the air conditioning and electrical
      requirements for the entire building, including the east wing, were provided by the
      central plant.

      In addition, the Inspector General, DOD engineer verified that the 19 power
      distribution units were physically located in building 3900. Sixteen of the 19 are
      currently installed and in use. The remaining three units can be relocated
      wherever needed in building 3900, including the east wing. DMC facility
      personnel stated that moving and connecting the power distribution units is
      covered under the interservice support agreement with Tinker Air Force Base.
      See Appendix G for the Inspector General, DOD engineering analysis for DMC
      Oklahoma City.




                                               24
              Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 4. The dollar value limit which would sign@ “without
additional investment” per the criteria for conditioned space.

     Senator Harkin’s office was concerned that:

                In later correspondence [between DISA and Senator Harkin], we were
                told that the ‘without additional investment’ meant that [sic] $100,000
                per installation. And, in discussions [between DISA and Senator
                Harkin] they [DISA] were not willing to tell us what ‘installation’
                meant.

     Background. DISA initially responded to this issue in a response to questions
     raised by Senator Harkin on December 30, 1997. DISA explained that the
     “additional investment” limit of $100,000 involved workload migration costs
     because of consolidation.   Migrating workload costs include site preparation costs
     for the installation of new computer systems. In the December 30, 1997 letter,
     DISA based their cost estimate on the DOD capital investment threshold of
     $100,000 per single computer system. Based on prior experience from migrating
     71 information processing centers (59 closed during BRAC 1993 and 12 closed
     under Defense Management Review Decision 918) to the current 16 megacenters;
     DISA further estimated that site preparation costs would be well within the
     established DOD capital investment threshold of $100,000.

     Audit Results. The issue raised by Senator Hat-kin’s office regarding “without
     additional investment” costs of $100,000 are nor part of the criteria, which
     addresses “no additional investment” for conditioned space. DISA was referring
     to megacenter capital investments that would be incurred as a result of site
     preparation costs, including the procurement or relocation of additional computer
     hardware, because of workload consolidation.




                                              25
Appendix C. Responses to Issues Raised by Senator Harkin’s Office



Issue 5. Chilled water pipe and electrical equipment was not
available in large segments of DMC Oklahoma City.

      Senator Harkin’s office requested that an engineer visit DMC Oklahoma City.
      The engineer questioned chilled water and electrical equipment capabilities and
      associated costs to improve designated space at the megacenter. The office stated
      that:

                 A qualified engineer went to Oklahoma City and discovered that chiller
                 [chilled water] pipe and electrical equipment was not available in large
                 segments of the designated space. And, even if the $100,000 definition
                 of cost was acceptable, which we question, it still could not be met. He
                 [the engineer] also indicates that the time requirement for installation
                 would be considerable.

      Audit Results. As addressed in issue 3, chilling equipment (provisions for
      chilled water) was a BRAC 1993 criteria for conditioned space. However, this
      requirement was eliminated in Section 4.1, Paragraph 3, “Ranking Weights,” of
      the SMART plan. Accompanied by DMC Oklahoma City facilities personnel and
      the commercial contractors who directed the electrical and mechanical aspects of
      the construction of building 3900, we confirmed that electrical equipment was
      available throughout building 3900, including the 11,578 square foot area
      currently being used by office personnel. As discussed in issue 1, sufficient air
      conditioning and electrical requirements are available in building 3900.

      As addressed in issue 4, investment costs of $100,000 are not part of the criteria,
      which addresses “no additional investment” for conditioned space. The only
      installation time expended would involve connecting existing power distribution
      units in the 11,578 square feet of space currently occupied by office personnel.
      As stated in issue 3, the Inspector General, DOD staff, including an electrical
      engineer, visually verified 19 power distribution units physically located in
      building 3900. The power distribution units can be moved and connected by
      Tinker Air Force Base facilities personnel under the interservice support
      agreement. Therefore, DMC Oklahoma City would not incur any cost to have the
      power distribution units moved and connected wherever needed in building 3900.




                                               26
              Appendix C. Responses to Issues Raised by Senator Harkin’s OffIce



Issue 6. Consideration         of contiguous space.

     Senator Harkin’s office was concerned that “We also question if certain space at
     Oklahoma City meets the contiguous requirement.”

     Criteria for Contiguous Space. The SMART plan, Section 4.1, “Site Selection
     Measures and Ranking Process,” Paragraph 2.1, “Facilities Measures,” defines
     contiguous space as “a subset of conditioned space; a contiguous raised floor
     segment (either horizontal or vertical) within the conditioned space measured in
     square feet.” Realizing that contiguous space has no megacenter value if the
     space only physically abuts, DISA clarified the definition of contiguous space to
     include conditioned space that is either horizontally or vertically connected with
     electrical and computer data capabilities.

     Audit Results. Office personnel, that occupy the conditioned space in question,
     are located in the east wing of building 3900. As stated in issue 1, the Inspector
     General, DOD engineer verified the existence of nine 4-inch conduits connecting
     the east and west wings of building 3900, by reviewing the conduit runs on the
     floor plan and visually inspecting the conduit run terminations as follows:

             l  three 4-inch diameter conduits originating    from room 147 located in
     the west wing, installed horizontally, and terminating   in room 103 located in the
     east wing;

              l    three 4-inch conduits originating in the Systems Management Center,
     room 237, located in the west wing, installed vertically, and terminating in the
     electrical/data closet, room 138, located in the east wing; and

              l    three 4-inch conduits originating in the input/output area, room 140,
     located in the west wing, installed horizontally, and terminating in the
     data/electrical closet, room 138, located in the east wing.

     Both the east wing and the Systems Management Center are electrically
     connected to the main computer room and are contiguous. See Appendix G for
     the Inspector General, DOD engineering analysis for DMC Oklahoma City. In
     addition, Brown and Root, Inc., categorized the space in question as contiguous
     space in the 1994 “Facility Baseline Survey.”




                                           27
Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 7. Reiteration of chilled water requirements                                 at
megacenters.

      Senator Harkin’s office reiterated the concern for chiller (chilled) water
      requirements. The office stated that:

                 DISA has countered that new types of computer equipment does not
                 require chiller [chilled] water. Some have questioned the availability of
                 such equipment. We believe that the electrical support for such
                 computer equipment is not available. But, in any case, DISA should be
                 held to the criteria that was supposed to be used to judge the space at all
                 facilities that was in place when Brown and Root conducted their
                 analysis. Clearly, chiller [chilled] water was a requirement at that time.

      Audit Results. To reiterate our results addressed in issues 3 and 5, chilled water
      is nof a criterion for conditioned space. The DISA Western Hemisphere, DISA
      Support Activity - Denver, reviewed policy on the procurement of computer
      mainframes that require water-cooling. Although no written policy existed, the
      DISA Support Activity - Denver stated that “no water-cooled central processing
      units have been purchased from a manufacturer since January 1995. In addition,
      DISA does not have any future water-cooled central processing unit acquisitions
      planned.”

      We obtained the Brown and Root, Incorporated, “Facility Baseline Survey,” dated
      July 7, 1994. The survey measured air conditioning requirements in BTUs, but
      the survey did not measure the availability or capacity of chilled water because
      chilled water was not a criteria for ranking the megacenters in the SMART plan or
      the Brown and Root, Incorporated, “Facility Baseline Survey.”




                                                28
               Appendix C. Responses to Issues Raised by Senator Harkin’s Office



Issue 8. Utilization and ranking of space at megacenters.

     Senator Harkin’s office final issue involving DMC Oklahoma City stated:

                That DISA does not have plans to use the space for computers at this
                time is not relevant.       The criteria requires that space meet the
                requirement for being available for use under the criteria. And, clearly,
                under the criteria, so the appropriate space should be downgraded. We
                believe the downgrading should be to the levels indicated in Gary
                Lenhart’s engineering report. It indicates that the cost of upgrading all
                of the so called conditioned space to a level comparable to the
                computer now used space is $2 million. And, that specific areas could
                not be upgraded for use by a single mainframe for under $100,000.

     Audit Results. The quantity of conditioned space is a criterion for all
     megacenters in the SMART plan. The SMART plan does not distinguish
     between conditioned space that is being used for computer operations versus
     conditioned space that is being used for other than computer operations.

     Per the referenced engineering report, the engineer suggested that 25,939 square
     feet of the 65,137 square feet of conditioned space should be downgraded to
     14,361 square feet of easily convertible space and 11,578 square feet of other
     convertible space. The 14,361 square feet, comprised of three areas (the Field
     Engineering Division, the Computer Operations, and the Systems Management
     Center) is conditioned space. These are the areas that the engineer suggested be
     downgraded to easily convertible space. The engineer contended that all three
     areas in question did not maintain chilled water availability. Again, the chilled
     water requirement was eliminated in Section 4.1, Paragraph 3, “Ranking
     Weights,” of the SMART plan. We verified that the three areas totaling 14,361
     square feet met all the criteria for conditioned space. In addition, we verified that
     the 11,578 square feet that the engineer suggested be downgraded to other
     convertible space is conditioned space. Our verification of the 11,578 square feet
     of conditioned space that the engineer questioned is addressed in issues 1,2,3,5,
     and 6.

     The engineer’s cost estimate to upgrade the conditioned space in question is
     $2 million. The $2 million cost estimate is comprised of $1.4 million to install
     chilled water, $200,000 to seal concrete subfloors under raised floors, and
     $400,000 to install additional power distribution units.

              l As previously   mentioned, the chilled water requirement is not a criteria
     to rank the megacenters in the SMART plan. Therefore, the $1.4 million estimate
     to install chilled water is unsubstantiated.

              l We determined that the $200,000 estimate to seal concrete subfloors
     under raised floors at DMC Oklahoma City was not warranted. We obtained
     engineering designs and diagrams, which confirmed that the subfloors in
     question were properly sealed. The general contractor for building 3900, Buckner
     and Moore, Incorporated, Moore, Oklahoma, confirmed that they applied a curing
     compound/hardener/sealer    during construction of building 3900. See Appendix H
     for the March 3, 1998 letter from Buckner and Moore, Incorporated, confirming
     that they used the material called Conspec2 1, which is applied when the concrete


                                              29
Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



      is finished. The sealer provides a moisture barrier consistent with specifications
      for megacenter subfloors when this building was constructed in 1994. See
      Appendix I for a cross-section drawing depicting the application and location of
      the concrete sealant and vapor barrier.

                l The $400,000   estimate to purchase and install additional power
      distribution units is not necessary. As stated in issue 3, an Inspector General,
      DOD electrical engineer verified the 19 power distribution units physically located
      in building 3900. Sixteen of the 19 are currently installed and in use. The
      remaining three power distribution units can be relocated wherever needed in
      building 3900, including the east wing. DMC facility personnel stated that
      moving and connecting the power distribution units is covered under the
      interservice support agreement with Tinker Air Force Base. Therefore, DISA
      would not incur any additional cost to move and connect the power distribution
      units.

      We verified that the total 65,137 square feet     of conditioned space (per the
      engineer’s report) met the criteria established    in the SMART plan for conditioned
      space. In addition, we do not agree with the      $2 million estimate to install chilled
      water; seal subfloors under the raised floors;    and purchase and install additional
      power distribution units.




                                            30
             Appendix C. Responses to Issues Raised by Senator Harkin’s Office



Issue 9. Space at DMC Ogden should not be included as DISA
space.

    Senator Harkin’s office was concerned that “Space at Ogden which is not
    occupied by DISA should not be counted. It is occupied by the 75th
    Communications Squadron and the Air Force Materials [Material] Systems
    Group.”

    Limitations on Convertible Space. The SMART plan, Section 4.1, “Site
    Selection Measures and Ranking Process,” Paragraph 2.1, “Facilities Measures,”
    provides additional limitations on convertible space. DISA convertible space
    must be space that is part of the main DMC building and the space must be
    currently paid for by the DMC.

    Audit Results. We toured the facility at DMC Ogden and verified that the DMC
    facility, building 891, has 142,793 square feet of space. DMC Ogden entered into
    an interservice support agreement, dated October 1, 1997, with Ogden Air
    Logistics Center, Hill Air Force Base, Utah, which outlined for building 891 the
    priority of space for building occupants and the types of support to be provided.
    Appendix J, pages 1 and 2, shows the types of support provided to DMC Ogden
    by the Ogden Air Logistics Center. See Appendix J, page 3, for a selected excerpt
    from the interservice support agreement that states that DMC Ogden, as the
    primary occupant of building 891, will have priority for space assignments over
    other building occupants. In addition, a May 13, 1998 DMC Ogden
    memorandum stated that DMC Ogden sublets a portion of the building to the 75th
    Communications Group and the Material Systems Group.

    A memorandum from the Facilities Manager of building 891 to the Hill Air Force
    Base, Facility Engineering (Appendix K), lists the percentage of utility costs to be
    billed to DMC Ogden, the 75th Communications Squadron, and the Material
    Systems Group based on the percentage of space occupied by each activity. We
    verified the percentage of space, as shown in Appendix K, that is occupied by
    DMC Ogden and the two Air Force activities in building 891 as follows:

           DMC Ogden                             46.96% (95,611    square feet)
           75th Communications Squadron          25.41% (36,288    square feet)
           Material Systems Group                  7.63% (10.894   sauare feet)
             Total                                100% (142,793    square feet)

    We obtained a March 1998 memorandum from the Vice Commander, Ogden Air
    Logistics Center, Hill Air Force Base, regarding the primary occupancy of
    building 891 (See Appendix L). The memorandum mandates that DMC Ogden is
    the primary occupant of building 891 and has priority on any building 891 space
    requirements. The fact that DMC Ogden is the primary occupant of building 891
    and has priority on any space requirements is reiterated in the interservice support
    agreement between DMC Ogden and Ogden Air Logistics Center, October 1,
     1997. The space in building 891 that is not being occupied by the megacenter can
    be vacated within 30 days for the megacenter’s use, should future needs arise.
    Therefore, the counted space in building 891 meets the SMART plan
    requirements for DISA space at DMC Ogden.


                                         31
Appendix C. Responses to Issues Raised by Senator Hat-kin’s Oflice



Issue 10. Space at DMC Columbus that is not occupied by the
megacenter should not be counted.

      Senator Harkin’s office was concerned that “At Columbus, counted space is being
      used by the Regional Control Center, not the DMC and should not be counted.”

      Audit Results. The Regional Control Center was renamed the Regional
      Operations and Security Center (ROSC) in August 1997 by the Director, DISA.
      The ROSC at the DMC Columbus is assigned 13,882 square feet of the total
      70,820 square feet occupied by the megacenter. This space was included in the
      total usable space occupied by the megacenter. The ROSC at DMC Columbus is
      part of the megacenter operations and reports to the Commander, DISA Support
      Activity - Columbus, as shown in the undated DISA Support Activity - Columbus
      organization chart (Appendix M).

       We obtained the mission and functions statement of the ROSC Columbus and the
      joint table of distribution, which lists all authorized ROSC employees by name,
       grade, and occupational title. The ROSC operating divisions listed in the joint
      table of distribution are described in the ROSC mission and functions statement as
      part of DMC Columbus. Appendix N, page 2, is the portion of the ROSC
       Columbus mission and functions statement, which states that ROSC Columbus is
       aligned under the DISA Support Activity - Columbus within DISA Western
       Hemisphere, and interacts with mission responsibilities of DMC Columbus.
       Space occupied by the ROSC is part of the total usable space to be considered as
       DMC Columbus space and was properly counted as DMC Columbus space.




                                          32
              Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 11. Space not counted at DMC Rock Island.

     Senator Harkin’s offrce was concerned that:

                If for reasons not apparent to us, these spaces are counted, similar space
                at Rock Island should be counted. The types of agreements being used
                to justify the space used at these two sites [Ogden and Columbus] is,
                we are told, in place at Rock Island. Consistency should demand the
                counting of 280,000 square feet of space at Rock Island as total
                available space.

     Limitations on Convertible Space. As stated in issue 9, the SMART plan,
     Section 4.1, “Site Selection Measures and Ranking Process,” Paragraph 2.1,
     “Facilities Measures,” provides additional limitations on convertible space. DISA
     convertible space must be space that is part of the main DMC building and the
     space must be currently paid for by the DMC.

     Audit Results. DMC Rock Island entered into an interservice                support agreement
     with Rock Island Arsenal, dated October 1, 1996, which shows               that 130,088
     square feet is occupied by the megacenter in building 350. See             Appendix 0 for a
     copy of selected excerpts of the interservice support agreement            between DMC
     Rock Island and Rock Island Arsenal.

     A memorandum from the Commanding Officer, Rock Island Arsenal, to the
     Director, Defense Information Technology Services Organization (currently
     DISA), January 22, 1993, states that building 350 has 220,000 square feet of
     additional space that could be reserved for DMC Rock Island within 1 year
     (See Appendix P). Although Senator Harkin’s office questioned the counting of
     280,000 square feet of additional space at DMC Rock Island, there is only
     220,000 square feet of space in building 350 available per the memorandum.

     Unlike DMCs Ogden and Columbus, DMC Rock Island currently does not control
     the use of, nor does it pay for, the additional 220,000 square feet of space. The
     interservice support agreement shows that DISA reimburses Rock Island Arsenal
     for costs associated with 130,088 square feet of space. Therefore, the
     220,000 square feet of space in question should not be counted as convertible
     space for DMC Rock Island.




                                               33
Appendix C. Responses to Issues Raised by Senator Harkin’s Office



Issue 12. Space at Rock Island was underrated.

      Senator Harkin’s office was concerned that:

                 Space at Rock Island is underrated. 6,600 feet System Management
                 Space excluded at Rock Island should be counted given that similar
                 types of space were counted at Oklahoma City. Given the criteria
                 explanations for cost of conversion and 3800 sq. feet of disallowance of
                 space at Rock Island because it had staff working sites on it, we believe
                 that space at Rock Island should be upgraded.

      Criteria for Conditioned Space. The SMART plan, Section 4.1, “Site Selection
      Measures and Ranking Process,” Paragraph 2.1, “Facilities Measures,” defines
      convertible space as space where an 18-inch raised floor can be installed with a
      minimum floor-to-ceiling height of 7.5 feet without structural changes.

      Audit Results. We determined that 5,662 square feet of space was assigned to
      the Systems Management Center in room 225 at DMC Rock Island. The space
      had a 4-inch raised floor and the space between the raised floor and the dropped
      ceiling measured only 8 feet, for a total of 8 feet 4 inches from the concrete floor
      to the dropped ceiling. Per the SMART plan, the space between the concrete
      floor and the dropped ceiling should be 9 feet to be counted as convertible space.
      Raising the floor to 18 inches and raising the dropped ceiling so that there is a 7.5
      foot area between the raised floor and the ceiling would require the rework on air
      conditioning ducts, fire protection system, and electrical lighting. This would
      require structural changes to the existing area in question. Therefore, room 225
      does not meet the SMART plan criteria for convertible space.




                                               34
               Appendix C. Responses to Issues Raised by Senator Harkin’s Offke



Issue 13. Erroneous data regarding disaster vulnerability.

     Senator Harkin’s office was concerned that “Erroneous data was used regarding
     disaster vulnerability. DISA data shows no federally declared disasters at St.
     Louis. We believe the number is, in fact, 14. It appears that the data for St.
     Cloud Minn., may have been transposed. That should be corrected.”

     Criteria for Disaster Vulnerability. DISA used the “National Processing
     Services Location Survey,” October 1994, a study obtained from FEMA, which
     ranked standard metropolitan statistical areas in accordance with a derived scale
     of disaster vulnerability. The study incorporated the degree of exposure to
     various hazards at the metropolitan area level.

     Audit Results.     We compared the disaster vulnerability composite score in the
     FEMA study to      the score DISA incorporated in the SMART plan for each of the
     six megacenters     we reviewed. We verified that the St. Louis disaster vulnerability
     score of 2237.4,    as reflected in the FEMA study, was correctly input into the
     SMART plan.

     We contacted FEMA and questioned whether a transposition error could have
     occurred for the disaster vulnerability scores for St. Louis and St. Cloud. FEMA
     officials advised us that, due to the lack of backup data, they could not verify
     whether an error had or had not occurred. Therefore, we requested that, as a
     test, DISA incorporate the St. Cloud disaster vulnerability score in place of the
     St. Louis disaster vulnerability score and recompute the megacenter ranking to
     determine if a transposition error would have impacted the ranking. DISA
     recomputed the megacenter ranking according to that scenario. The ranking of
     the top five megacenters remained the same, and DMC Rock Island remained the
     sixth ranked megacenter. Therefore, we believe this issue is moot.




                                            35
Appendix D. Glossary of SMART Plan Criteria

   Section 4.1, “Site Selection Measures and Ranking Process,” Paragraphs 2.1,2.2,
   and 2.3 of the SMART plan defines the 12 criteria as follows:

   Usable Space - a measure of the total space available in the primary Megacenter
   facility for installation of mainfiarne computer equipment; measured in square
   feet. Usable space will be calculated by adding the primary facility values for
   conditioned space, easily convertible space and other convertible space.

   Conditioned Space - a subset of the usable space, defined above, which is
   immediately available for installation of computer hardware requiring a controlled
   environment; measured in square feet. As a minimum, such space provides a
   controlled environment and a raised floor air conditioning plenum 18 inches or
   higher above the subfloor with provisions for air conditioning and power cable
   distribution with no additional investment.

   Convertible Space - a subset of usable space, defined above, which may be
   converted to conditioned space; measured in square feet. Convertible space is
   further defined as:

       0    space where an 18-inch raised floor can be installed with a minimum       floor
   to ceiling height of 7.5 feet without structural changes,

       l  space that has or may have installed a controlled environment     without
   adding to the capacity of the source, and

       l   space that has or may have added power cable distribution     and an
   adequate source of power.

   Convertible space can further be categorized as either easily convertible   space or
   other convertible space.

            Easily Convertible Space - convertible space in the primary Megacenter
   facility which is contiguous to conditioned space, requires little or no demolition,
   and represents a minor cost for conversion to conditioned space.

            Other Convertible Space - convertible space in the primary Megacenter
   facility that cam-rot be characterized as easily convertible.

   Contieuous Space - a subset of conditioned space; a contiguous raised floor
   segment (either horizontal or vertical) within the conditioned space defined
   above; measured in square feet.

   Air Conditioning - a measure of the total cooling capacity available in the
   primary Megacenter facility; measured in British Thermal Units. For reference,
   one ton equals 12,000 British Thermal Units.




                                         36
                                Appendix D. Glossary of SMART Plan Criteria



Electrical Service Feed - a measure of the total electrical power available at the
service feed of the primary Megacenter facility; measured in kilovolt-amperes.
Electrical service feed may be further defined as the total power available at the
service feed from the point of conversion to building power at the transformer.

-repate      Remlated Power - the total, aggregate regulated power irrespective
of the present configuration.

Back UD Power - the total electrical power measured in kilovolt-amperes
available from stand-alone generators, or other alternative sources, for use in
powering the data center when the primary power source fails. Back up power
may not include power reported as regulated power.

Localitv Pav Percent - the percentage of base pay used to calculate federal
locality pay for a specific location and a measure of the cost of labor associated
with the operation of the Megacenter, based on the Bureau of Labor Statistics
survey of federal versus non-Federal salaries (Locality Pay) for the Metropolitan
Statistical Areas where Defense Megacenters are located.

Disaster Vulnerabilitv - a measure of the primary Megacenter facility’s exposure
to natural disasters such as tornadoes, hurricanes, and earthquakes expressed as a
numeric score varying from 3108.6 for the least vulnerable to 44.55 for the most
vulnerable Metropolitan Statistical Area. This measurement is based upon
historical data compiled by the Federal Emergency Management Agency in a
document called “National Processing Services Location Survey.”

Buildinv Condition - a measure of the primary Megacenter facility’s condition
based on a professional engineer’s on-site assessment of exterior and interior
building components, foundations, superstructure, heating, air conditioning,
ventilation, plumbing and electrical systems. Building condition will be
expressed as a numeric rating from 1 to 9, defined as follows:

    l   Building - building systems or an element within a system that is
unsuitable for continued use because of a hazard to life or health resulting from
the component.

     l   Building - building systems or an element within a system that is
unsuitable for continued use because of inoperability, but not presenting a hazard
to life or health.




                                     37
Appendix E. Estimate for Preparing East Wing
of Building 3900 at DMC Oklahoma City

           .-
                                         DEFENSEINFORMATION    S~smhis AGENCY
                                                 WB’IIXK   HEMSFIERE
                                             DEFEMEM-OIUUI)LUCm
                                                  6705I~~slluALBLVD
                                           TNKER
                                               AmFCRCT   BUE O#UAHOMA
                                                                    73145.3352


 INREPLY        DISA WESTHEM            (WEK)                                                    @4uAR      I993
 -To:


                MEMORANDUM   FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                          ATTENTION: MR. NICK COMO


                SUBJECT:            Dctiinsc Mcgaccnter Oklahoma City Conditioned Floor Space



                In response to a DODIG site visit, the following cost estimates were provided to support
                costing information for preparing the East Wing of Bldg 3900 to install computer
                equipment.

                I.         In the event the Defense Megacenter Oklahoma City (DMC-OKC)             has a
                requirement to plnce computer hardware in the area identified as I 1,578 sq. It of
                Conditioned Space (East Wing. Bldg 3900) to support additional workload requirements,
                the following      implcnlcntation plan would be executed. The administrative support
                personnel located in the alt’ectcd area would be relocated to additional administrative
                workspace identifed in a portion of Building I, located on Tinker Air Force Base. This
                area is readill, avnilablc for immediate occupancy with the entire required
                communications        inlkastructure in place. A portion of Building I contains 13.500 sq. ft
                and is currently     assigned IO DMC-OKC for its USCat no additional cost. The relocation of
                these personnel would have no impact on DMC-OKC’s              ability to provide uninterrupted
                support to its customers.


                2.      DIMC-OKC facilities staff would disassemble and remove all furniture modules
                liom the rcl’rrcncctl XL’U. Rcquircd work is estimated IO take four people less than
                (IbOm/hrs) total, and \\ould bc accomplished during Non-Prime hours of operation
                (1600-0700). A hccnscd electrician would be required to disconnect the power from the
                l’urniturc. IA W u ith OSHA     regulation. The said work is estimated lo take less than
                (40mlhrs (g f4O per hr).

                3.        Presently there is 625 amp 120!208V 3+/4W UPS/Generator supported,
                distributed electrical power available for immediate use in the affected area. Ifadditional
                computer    equipment    dictates the requirement   for more electrical capacity in the affected
                area, an additional 800 amps can bc made available        in less than (8mIhrs @ $40 per hr). A
                licensed clcctrician \\ould pcrlorm this work.




                                                               38
Appendix E. Estimate for Preparing East Wing of Building 3900 at DMC
                                                        Oklahoma City




   4.      The total cost for the preparation of the space in question, excluding the work
   performed by the in-house facilities staff, is estimated at S1,920.00. The overall estimated
   time, including   in-house stairto   accomplish   this task, is (208mlhrs).




                                                          RUDY ibt. VbZ$ UCguty Oircctor
                                                          Defense Megacentor Oklahoma City
      Appendix F. Mainframe Computer Delivery
      Lead Times

                                                                    INFORMATION FOR ~RDEIUNO A%%


                                       INFORMATION FOR ORDERING AGENCIES

             1.   ceogrrpblc      scope
                                      ofconllmcl
                  T)fusphic          rope of this cootrw   is the 41 contigua~~     rtes   (COiVUS) end the District of
                   0

             2.   sarirc      Are= (see   Appdh      A)




                  Ordm far CONUS and U.S. Government yenciu                     ove~sw.    conforming   with gcomphic
                  rcapc u Mured in Itam I. rho& be DIMto:

                           Stomge Technology Corpontion
                           12200 Tech Road
                           Silver Spting, Maryland 20904-1983
                           ATIN: Marketin& DcpaHmmt

                  Peyment Address

                  PoynmU~ by check rhovld ba unl to the S!onFTe& edd1~5 u listed on rhc inroice end
                  lould contain identifying invoice numbu(5) end cu5tomer number(l) u         par5 on the
                  invoice. If payll~t ir made by dectronic fumh tnn5kr, pIsum include idea t&q    mstomec
                  number end invoice aumber u appears on invoice.

                  NOIICE:    A~enciu ue mtnindcd that invokns for equipment ue ti to be @d ~ril
                  funnel uocp5Uia of equi mait t ma& in eawdanCe with the @cJbk                 Sonbrd Of
                  krfommlceClmJ=Hf OltI In the LrOP and purchase rection~ of thir ADP Schedule Price
                  IA. Earlier pl)raut i5 a vidation of tbir contmcr end 31 USC 3324 - AdvMce5 of Publir
                  Mooic5. The date of the 1~       check will be considurd the date of payment.

             5.   P.0.B. PoimI




StorageTek
Corp.

                                                                       of   l   valid order or et e mutually rule




                           concetiing tbir 5ervia.

                  C.       urgcel Req5dtenMa     When the Federal Supply Schedule contmct deliwry period
                           doe5 not meet the bonr fide ~fgcnl klivuy   rfquircmcntr of UI o&ring egCnCy,



                                                                3
                                     Appendix F. Mainframe Computer Delivery Lead Times




       r
                                                -cmsaEouu                N~JMEKGWSF~ZO~C



                         1.   &rmctnr     status: staisticd Dara for Sundud     Form 279 orDD Form 350
                              Rcpo&ng by Govunment Onkting Offices:

                               L hfwmntion for Field Buying Of&u to Coqhtc Standud Fam 279. Fcdct~I
                                 pmcurrmcnr m sptan (FPDS) wvidwl chtnd hctiorr Bqtt.

                                 Block 9: OrdcrModificatiaa Uada Fcdml Sclsdulc.
                                 Block 16: Chnctor Establishtncnt Cc&:

                                 &d&l Capontion’s DM utd Bt&twet Nutnber is 06-356-7820
                                 AFSC’s Ccmtnctor EstnblishmcntCode is 127539150.

                                 Block 30: Type of Gmmctor

                                     A.    Saul1 Dii~Btinerr                        .
                                     B.    OthcrSuwllBusinc~~              .
                                     C.    Lugt BlrriDcs X           .
                                     0.    othuNonpfitotguhtion                     .
                                     L.    FmignGmm_.

                                 Block31: Woma&wwd Small Business ( No).
                                 Block 34 Subject to L.&x Statutes:

                                     A     W&h-Huky M-Micaurr                  On       a

                                     B.    Wakiaky         AU-Dmla ~-SW&

                                   Block 36: ws             TmxIhtihtion        Numkr (TJN):

                                              94_1728541hhhl)                  p4-272411%r-s

                              b. CAC3ECo&@ix DD Form 350):

                                             9n47*ddtu              p667(AFsc).

                                                                     ““ET                       u&b is FOB
                                                                                                        ._,.__
                                                                                                             ,..,
                                                                                               * ---__.
    Delivery lead
    time Amdahl
                         6.   DalivayTitnez 3O&ys~rueiptofaQarnoclotirppdbawathe
    Corp.                     ord&gofficcmIdthcCotllwor.        Inwc8Ycwldclivuytiwauxed180~
L
                              aftcrtwxiptofordcr. Mndahtfurtheragtcestogivcptifxityova31Dm-
                              amakvyadcntodrlivaiuforor&7swrhirh~idatiiidrs~inluppcnt                                      ,
                              of dirznrr rawcry for rcpls    titIkindofcxisringaystansthtinvcbtQ                        ..’
                                                                                                                    I .*
                              destmya&sahulydun+,orotbchs.rahedinopsrble_                      __._.#J
                                        ‘___,._-.- . __.. - .--.      -__._         _ .__----


                                                     2.2                                    l/Mm   limwgbw3an7
                    --




                                                              41
Appendix F. Mainframe Computer Delivery Lead Times




     ViON Corpondon         GSJSFUO4D                                                                     03-2646


     !tdFOFIIUTION FOR ORDERING            OFFICES

     1.    toographic        Sop     of Contract.

          The geographic 8abp of fhr ammcf Is mo 4a amffguous lfaws. the Dfsfriu of
          Columbia, ld mo Sm?s of HawaY

     2.    Contra-s          O&ring     Add=        and Pqmmt         Wmullon;

          tfJQH$OfdOr@&&g&&                           Vi    Cqomdon
                                                      1066 fhomir J~ffenon S&o& N.W.
                                                      Wuhlngtan, DC 2odot

          VfoHs PB                                    VlON Corporation
                                                      1055 Thornor;Jeffenon Stmot, N.W.
                                                      Wuhiwmn, DC 20007

          Govmmrnt Commercial Credit Card6 will br aaqbblr                   for p8ymenL In addition. bmk
          awwt         informdon for wfn frmsfrr pqtnmta WIU00 shown on thr invoice.

          Bobw am Um telephone numbar(s) tit             can be used by or&ring ~gonci~s (0 obfaln
          technkrl and/or o&ring urismncr.

                                                      (202) 4676500

                     3.       RESERVED

    4     Statlrtfaf       Data for Gowmmrnt        Ordrrfng Office CompleUon of Standwd Form tn:

          Block 9:           &     OrdwModffiuFlon Under Federal Schoduk

          Bloclr16:          Cantmdor Establf~hment tcda (DUNS):                 09.6664323

          Block 30:          Typr of Contractor -                                B. Oltw   Small Euslnms~

          slock31:           h’omm-Ownad Small Suslnasc -                        No

          BlW       344;     RESERVED

          BlocJr3:           Conbacbrs Tarpap         ldentlfiifion              EfNS211171U
                             Number (TIN) -

    4a    UGECodw            2U672
                                                                        --       /--a.
                                                                                            -\.
                                                                                                  ‘-“l.
                          U&L DELIVERY SCHEDULE (MULrVLE                 AWARD SCHEDULES)

                    TIME OF DEUVEAY. WN shah doliver (r, destlnafion wlfhti the numbar of
                    alrndar days afw r6seipt of ardor (MO), u sat forvl below. ViON shall Itwart in
                    iha *me of Daffvary (days ARO)” column h 610 Schedule of ifem a d4fhlU
                    ntmbw of dendu drys uifhin tikh delhywlU br mm. In no case           shafl
                                                                                   __..__-. 3
                    oftand d&q     time ezcaed &II!& wnn~mmard&pmcfi~.
           .\.---


                                                     px!w5




                                                              42
                                   Appendix F. Mainframe Computer Delivery Lead Times




\‘iDN   Corpontion GSJSF43040                                                                       03-2s-a
                                                                                     -...\


                          ITEMS OR GROUPS OF WEMS                                      \
                                                                             DELlVERY TIME
                             (SIN oc Nomenchture)                             (DAY!5 ARO)
                                                                                                    \
                                                                                     30
                                                                                                        I
                                                                                     30
                                                                                     30




                  below.a time(houn/days ARO) h!           d&‘uy   can be made whm ucprdlkd
                  d&vary h rquestcd.

                     rrEh#g OR GROUPS OF lTEMS                       EXPEDlTED DLUVIRY              7lME
                         (%XNof Nomonctature)                            (w00~AYs               ARO)

                                   None                                              lw


            (c)   OVERNIG~       AND 2-DAY DELIVERY TlMES. Scheduio custnmert may requim
                  memight or P-day ddiurry. Tha offeror is mqursted to annomm In lb prluIiit or
                  by 8-b       8Uachmnt Ba -3amcthat an ho ddlomd owmight or w?tMn2 d8ys.
                  Contndorc offaring such dsliiy seti     will be mquired to shtw in tho FSS
                  prlcaliit dsmils mnceming tMs rsfvice.

        [d)       URGENT REOUIREMENTS

                  Whrn U-IOFederal Supply Schedule contract deDv6rypert00 864s noI mrrl thr
                  boru (Id@urgent d&my     mquimmanta of an tiring    agency. agmndos an
                  oncauragad. lf nma pohts. to contact VION for ma pulpow ol obalnlng
                  rccelonrcd drllnry. MON shall replyto Ikr inquirywimin 3 woNdayS &ltu
                  mcwipt (Ttalephonlc rapllor shall ba confIrmad by WON in wnlfng.) If WON offof
                  an accabrabd dolhmy tknr acceptable to Uw ordulng agency, ry order(a)
                  plrud punulrrt to the agnra upon rcalrntcd d&my tlmo framr ahail ba
                  dalfvered w@h W r3larlu drlivry ?imo ud in ucofW%m wilh all other PAM
                  and mnditiw of me eanbncl

7.      Dl+OOUntS:
        8.        PromPt Payment:         A% - _Q clryr horn nctlpt of LNbin or data ol
                                          accePtance. whkhmr b l&r.

        b.        Pu8ndty                                                                    Non@

        5.        Dollar Volume                                                              None

        d.        Govommant Edtwatlonal      tnrtWtlrrru

        l         Dia8ount tar YH ol Gowmnunt        Commu&l         Cl-&l    CIrd           NOM

        t.        otluf                                                                      None




                                                Pago 6




                                                            43
Appendix F. Mainframe Computer Delivery Lead Times




           CHAPTER         2. GENERAL   1NFORMATlON


                                                      2.1.4   Slrt d lluslncsr


                                                      2.1.9   DUNS Number, Tar ID Number 8nd
                                                      CAGE Code




                                                      21.6    Shipping PoinUTrmrportrtion




                  _.__. . ..__-
                  aded   IO Or IUM
                  Pesl ofice Box 90




           21.3     Payment Address




                                               44
Appendix G. Inspector General DOD
Engineering Analysis

                                         HSPECTOR GENERAL
                                         DEP~NTaFDaENsE
                                          4oo~VNAWDFIM
                                         W-roN. vRcM22zo2
                                                                         May 4. 1998

    MEMORANDUM FOR AUDIT PROJFXT MANAGER
           THROUGH TECHNICAL DIRECTOR f

    SUBJECT: DODIG Engineering Verification Of Audit Of Defense Information
             Systems Agency Rock Island Megacenter Realignment
             (Project No. 8CG-5017)

             During my site visit to DMC Oklahoma City on April 22-24, 1998, I met with DMC
    facilities technical staff and management. Additionally, I met with a field engineer and an
    electrical construction foreman employed by Echols Electric Company and an electric power
    consultant from Circa Power Inc. Tbe three private company’s employees are responsible for
    the construction and supplemental electrical installations for building 3900. We reviewed
    provisions for air conditioning and power distribution.

            The electrical and air conditioning requirements for the entire building, including the
    east side, are provided by the Central Plant. Presently, the east side cooling controls are set
    for personnel occupancy.

            We verified the existence of nine 4-tih conduits connecting the east and west areas. by
    reviewing the conduits nuts on the floor plans and visually inspecting the conduit run
    terminations: three 4-inch diameter conduits originating from (room 147) located in the west
    side and terminating in (room 103) located in the east side; three additional 4-inch conduits
    originating in the system management center (room 237) located in the west side and
    terminating in the electrical/data closet (room 138) located in the east side; and three 4-inch
    conduits originating in the input/output area (room 140) located in the west side and
    terminating in the data/electrical closet (room 138) located in the east side. The conduits
    provide capacity for additional data and power cabling distribution. if required.

            We visually verified the 19 Power Distribution Units (PDU) physically located in
    Building 3900. The PDUs can be relocated wherever needed in Ruilding 3900. including the
    east side. DMC facility persoml stated that moving and connecting of the PDUs is covered
    under the base support agreement with the Tinker Air Force Base. Three (3) of the 19 PDUs
    were not in use.

           If you have any additional questions, please call me at (703) 604-8916.




                                           Wei K. Chang           /
                                         Electronic Engineer
                                    Technical Assessment Division




                                                  45
Appendix H. Memorandum on Concrete
Sealant Specifications for DMC Oklahoma City




                            buckner & moore,inc.
                                  GENERAL CONTRACTOR
                                  3Mpchl991

          Mkezkktr
          L4+tidSpt8IfSOpCWbWCeaa
          Tinka MB. OK




         P 0 BOX6W.   MOOR&OKLAHOMA‘T)I53.TtWHONE   (405) 7W-7785.PAX(405) 79Ml46




                                      46
               Appendix I. Concrete Sealant Specifications               for
               DMC Oklahoma City (April 199?2)




                                   7O.R.      b s.             I

                                             E J.
                                                           .




           -


               1 !.ELCONC
                       I
Of Concrete      &ACIKW
sealant         -                          nrsonaroc
                                           Rff. SmJcT.
                                           * *ltRPRoofHC
                                           I,   WoTtcTan           no.
Location
of vapor
barrier




                                             47
Appendix J. Excerpts from Interservice
Support Agreement, DMC Ogden and Hill AFB

                                                  SUPPORTAGREEMENT




 Audiou~I
        ViiudInfomutioa
                   Scfficu

 AHOUUIUI     Da PrauringMutomuion Scmim

 Chaplain Service5                                        No Reiibuoemcnl    No Reimbuncmen~


 Civilian Personnel Service4

 Cluba                                                    No Reimbunemenr    No Reimbuncmc~U


   wulurd    suppon                                       No Rcimburonwx     No Reimburwncn(


 Common Use Facility Dper~tio~~,   MainlurrPce,           No Rrimburremca(   No Reimburscmenr
 Conwwion

 Communiurion      knicu

 conynuniy     Servicer                                   No Rcdwemenl       No Rtimburscment


 cwtaid      S&m

 Dirolu     Pqwcdneu                                      No Reimbwumcu~     Nn Reimbuaemcnl




                                                        48
Appendix J. Excerpts from Interservice Support Agreement,                                    DMC Ogden and
                                                                                                  Hill AFB




      SUPFORT AGREEMENT FB2029-97274-699

      BLOCK 7. SUPPORT PROVIDED BY SUPPLIER. CONTINUED:

                                                       BASIS WK           Es I’IhlAlED
     SllFPORT
      Eduation Savii                                   SeeAkhJ            stc Alch s

      Entomology Setvicu                               Sn Alch 5          SeeAtcb 5

     E4vimnmcnm1 Clruwp                                Sn Atch 5          See Atch S

     LviloMIm~l          c4mp1iwlce                    No Reimbutwnent    No Reimbursement

     Fulltty C-on             nod Mdor Rep&            See Alcb 5         See AIch 5

     Facility ~oc~~ca         md Minor       Repair    See Atch 5         See Auh J

     Finwee uld Accowtin~                              N4 Reunhuocmmc     No Rcimburscmcm

     Fiie Pmtcction                                    Nn Reimbursemen:   No Reimburseaxnl

     Food Smia                                         No Reimbunemen~    No Reimburscmm~

     He&h Services                                     No Reimbuncrncnt   No Reimbunemtnl

     Houring md Lgd#og Services                        No Reimbursement   No Reimbursemeat

     &lligcocc     Support                             See/Itch5          see AlCh 5

     L.wndty ad Dry Clcuring                           No Reimbunarimr    No Reimbuntmcnt

     LegsI scrvicu                                     No RrMursement     No Rrimbunmrent

     Ml      Service                                   No R&abursanem     No RGmbumcmcnr

     M8il Po:tagc Service                              Set A,rcb I        SW Atrh 5

     Mibty      &SOMei     Support                     Nu Rcimbucrmem     NO Rcimbumemcnt

     Mode,     Welfue and Recreation (MWR)             No Reimburremrnt   No Reimbursement
     Activities

     Mortuary servicu                                  No Reimbursement   No Rcimbwemmr

     Occupational rd      Indwtrisl llulth    Swvica   See Atch S         See Atch J

     Police Sewica                                     No Rcimbuaemml     No Reimbumcment

     Public Affairs                                    No Reimbunement    No Rcimbunrmm~



     3




                                                                                                         J

                                                         49
             Appendix J. Excerpts from Interservice Support Agreement, DMC Ogden and
             Hill AFB




                 c. Receiver    Authorized     Strcn@~:    Ofbus         - I (USAF); Enlisted - 3 (USAF); Civilian - 274.        fotrl:     278.

                 s. UDiqtK Xeceiver       zequirelaenu
                                                    above        &I? standud level of supporr UC subject to tlepotiatioo cod rcimbuncmcnl.

                 ,. Support &nd cost basii ch~~tes I5 percent or grcrler must be submined to tbc agreeroeot rppravirtg                       rudtorilies.

                    This agreement       will be nviewed    triemially     at lcut   120 Lys prior IO tie rnnivcnuy     of the   cffwtive     detc (Block 3).

                 c. Rcccivn will proviak  annuaJ  DD Forms 448. Military                IntertLpar~~mtrl   Purchue    Rcqunrc (MIPRs)           es follows.     MlPR
                 dlocrtinn will be broken out by crtcgoy of support.

                     (1) MIPR to 00-ALC~TIEPR.          nwrkcd for ‘IS CEGICEKS,               for Eatomology,   Facility Conrtrutiun         end Major Repair,
                   ;iliv   Maiatetut~c     and Minor Repdr ml Rtfur Collccti~n.               COSU for Crc eatrhorier wU be billed monthly bestd                  OD achd
                 charges   with the exception of contract costs which will be billed at the hcgituting of tbc fiscal .yeu.

                      (2) MIPR to OO-ALCTTIEPR.       marked for OO-ALCIFMBAO.        for Civilian Pmontul (iiludiag EEO), Cotnmnicrtim
                 Services (basic trlepbone service) and Custodial Services. Costs will be billed one-lourtb per quarter wirh tbc cxccption of
                 contrast COW which will be bikd 11 the beginning of the ftscel ycu.




             .
Excerpt-

I
DMC Ogden
as primary
             !                                      TOTAL       I IO.962 sq R
         s   ’
                 The host inetsllrtion will ret&     ownership of Building 891 which D1.9~ occupier. However.                DISA         u the prinluy       occupeor of
                 Build@ 891 will hrve pfioriry       for rpxe ~ignttturts  over o&r building occupao~s.

                 See Aaachmcnt      1 for Specific Provisions.




                                                                                             50
Appendix K. Percentage of Utility Costs Paid by
Tenants of Building 891 at DMC Ogden

                                DEFENSE              INFORMATION                 SYSTEMS               AGENCY
                                                               DEFENSE HECACENTER   OCOEN
                                                                   73i;‘NAR3LEICH ROAD




    WEG     11

    TO                      75 CESCEZ


    SLBJECT                 Space Bcme Ltilrztd           $1 Organrzatrons      Located          in Bu~idng S9    I

    I Listed belou is the spa:: m s;;a:e :botage being otrhzed                              by each oi 5:         orgaruzations   rvithm
    Building S91 The cakulations usei :o terermrne or_rxuzatisnal                          responsrb:hries aas based on the total
    ofhw’computcr  space availabie sub::acted from the total space                          availabie to determine total common
    use space The common use s,,_,    -t+-e footage IS drrectly                            propon;ona!e    to the percentage   of
    oficexomputer            space being klrzet           by an or_naniza:lon


    I! Requen       You update real-enar. - ,..
                                            ---or&             for BuiJdmg S91 ro reflect Sqtiare footage and percentage
    of use as listed below                for Defense      Informatron    Systems        Agency      (DJS.4).     75 Communications
    Squadron        (75th     CS)    and .\latenai      Systems Group t’lSG.‘SO)                 Future wlitres       should be billed in
    accordance       uith these numbers


            BLDG       891:         100%                                        DIS.4:       66.96%
           Total avarlable space              l42.Y                             OtTice            x.557
           Total ofc’comp                    I 17.2~:                           Common              16.91’
           Total common             use       3.;    :?                         DIS.4 total         95.61     I

           75th CS:           25.41%                                         ZlSG/SO:              7.63%
           Office             1_9.ss-t                                       Otiice                 S.361
           Common              m                                             Common                  -1 9:’
           SC total           ;r5,1ss                                        \ISG        total      l?.S94


    5    If youhave    any questrons ;epa. “.-E
                                            -..._ thrs correspondence,                   please coniact Ralph Pettit, DSN           Vi-
    5995




                                                                          BRUCE      FOL’ST
                                                                          Facilities Manager




                                                                     51
Appendix L. Memorandum Regarding Primary
Occupancy of Building 891 at DMC Ogden

                                 DEPARTMENT OF THE AIR FORCE
                                      OGDEN AIR LOGlSTlCSCENTER (AFMC)
                            tlEADOUARTERS
                                       HILL AIR FORCE MSE, UTAH




                                                                     23 March 1998

    MEMORANDUM FOR SEE DISTRIBUTION

    FROM: 00-ALC/CV

    SUBJECT: Primary Occupancy       for Building 891

    1, This memorandum     is to identifi; Defense Megaccnter     (DMC) Ogden as the primary
    occupant lot Building 89 1,

    2. DMC Ogden is a signikant      contributor to the efficiency and viability of the Ogden
    Air Logistics Center. As a tenant, they occupy Building 89 1. This building is a spectal
    purpose facility consisnng oiraised flooring, compartnientahzauon,      and trenching for
    large scale computer opcrat:ons.    It has the security, backup power. and other utilities
    needed for a first-rate computing iacility. As a result, I am destgnaung DMC Ogden as
    the primary occupant of Bciiding 391, giring them priotiv on any Burlding 89 1 space
    requiremenrs.

    3. All space requ:remcnts :nll contmue    to be handled thorough our curent      process
    adm:ntsrcred by 00-.ALC IS?.




                                               THO.Ll.ASA. ORIORDAS, Brig Gen. USAF
                                               Vice Commander


    DISTRIBUTION:
    oo-ALCIFWXP
    75AB\V/CC.‘SC
    7WTGiCC
    75CEGiCC
    MSGISO
    DIWWG




                                                52
           DISA SUPPORT ACTIVITY   -
                  COLUMBUS

                     COMMANDER




MANAGEME
Appendix N. Mission and Functions Statement
for ROSC Columbus



        DISA SUPPORT ACTIVITY-COLUMBUS
       REGIONAL OPERATIONS AND SECURITY
                 CENTER (ROSC)




           VISITOR   INFORMATION

          ORGANIZATION     OVERVIEW




                      54
                         Appendix N. Mission and Functions Statement for ROSC Columbus




                         Welcome to the Regional Operations and Security Centar-
                          Columbus Overview and thank you for taking the time to
                                         review thase materi818.

                    ROSC-C Vision Statement. Our Vision Statement for the
                    Regional Operations and Security Center - Columbus (ROSC-C)
                    is as follows:

                         *To be a Uorldclass Network Service Provider, responsive
                         to custamr needs, while delivering quality cc&at
                         support to the Warfighter."

                    Rose-c Motto.           Our Motto is as follows:

                              *Excellence     in Network   Services.”

’ Alignment         Our organization    is highly motivated and committed to
  of ROSC           accomplishing    our Vision and honoring the concept and
  Columbus          philosophies   of our Motto.   The Warfighter is the ultimate
  within DISA   ,   beneficiary   of our efforts.

                    1.    Introduction of Organization,            Mission   and Functions:

                    The ROSC-C is aligned under the Defense Information Systems
                    Agency Support Activity       - Columbus (DSA-C) within the
                    Western Hemisphere (WESTHEM)environment.          The DSA-C,
                    commanded by COL Douglas Beaty, includes Megacenter,
                    Regional Services,      Business Management and Security
                    Divisions     that, while having unique mission
                    responsibilities,     closely   interact with the ROSC-C. The
                    ROSC-C is structured      into four Divisions.    Each Division is
                    assigned specific     responsibilities   and contributes   in a
                    variety of ways in support of the Directorate         and the
                    Command. The Divisions        and their major AOR's are as
                    follows:

                         Network Sexvices. Project             Management, Planning     and
                    Wide Area Network Activation.

                         Network Integration. Network Design and
                    Implementation, Configuration and Performance Management.

                         Network Operations. First and Second Level Fault
                    Management, Resolution and Reporting.    Global Operations
                    and Security Center (GOSC) and Service/Agency   interface.




                                                                                              J




                                                             55
Appendix 0. Excerpts from Interservice
Support Agreement, DMC Rock Island and
Rock Island Arsenal
                                                                 UWUK       I AbKttMtN              I
        -
I

        1. AGREEMENT NUMBER 2. SUPERSEDEDAGREEME/3.                                     EFFECTWE DATE                 4. EXPIRATION DATE
        (F’ROVlDED BY SUPPLIER) NO. (lF APPUCABLE)                                          WDD)                      (MAY BE ‘INDEFINITE-)
    t       52HlB-121
           svision 1                      W52HlB-93106-121                                   961001                          Indefinite
        . . SUPPLYING ACTMTY                                                     6. RECEMNG ACTMTY
         a. NAME AND ADDRESS                                                     a. NAME AND ADDRESS
        C:ommander                                                               Director
        Flock Island Arsenal                                                     Defense Megacenter Rock Island
        Pt-l-l-N: SIORI-RM                                                       A-flN: WER
        Flock Island, IL 61299-5000                                              Rock Island, IL 61299-7560

         I,. MAJOR COMMAND                                                   / b. MAJOR COMMAND
        AMC
         ir. SUPPORT PROVIDED BY SUPPLIER
        il SUPPORT (Epcbywh*. Wrm. I hen. ad hm        -1                        b BASIS FOR REMEURSEMENT         1 c. REIMBURSEMENT
                                                                             I                                    I

         See affached block 7. for FY 97 information.                                   See attached block 7.         fixed Price: S 2.512,051




         ADDlllONAL SUPPORT REDUIREMENTS ATTACHED:                                   YES (X)   NO ( )
        I3.SUPPLYING COMPONENT                                                    9. RECEMNG COMPONENT
            COMPTROLLER    SIGNATURE               b DATE SIGNED                  a. COMPTROLLER    SIGNATURE              b. DATE SIGNED




        SUZANNE WELLS, Director of Resource Mgt
        :. APPROVTNGAUTHORITY                                                    c. APPROVfNG AUTHORlTY
        (1) Typed name                                                            (1) Typed name
        STEVEN L. ROOP
        Colonel. OrdC
        Commanding
        (2) Organization                        (3) Telephone Number              (2) Organization                     (3) Telephone Number



        iock Island Araenal                        DSN: 7936035
        (4) Signature                              (5) Date Signed                (4) Signature                           (5) Date Signed



                                                                             I

        IO. TERMlNATlON                    (Cam+t.onlvwhcnl             L        -IdI

        c APPROWNG      AUTHORITY   SKiNATURE       d. DATE SIGNED               c. APPROVING   A!JTHGRIlY   SIGNATURE        d. DATE   WED



                                                                             I

        OOFORM   1144. MARS2              praiolnc6dmwrobsdclr                   1




                                                                            56
         FOR ISA NUMBER: WSZHIB-121. Itcvisiou    1                     \f
         CUSTOMER:   DMC
 Arm    I                                                                    LINE         1   FY 97   f
 COUE   1         TYPE   OF SUPPORI
Z4~tG~~-~.XiiiCUTiK-
                                                                                s I YY.604
                                                                             fl.1 IS.526
                                                                                 514.557
                                                                                      $919
                                                                                    $1 .SSY




        I

        ]CRAND TOTAL - FY Y7                     i ___Z




                                                          SECTION   4                             Printed 02f22l97
Appendix P. Memorandum                                                 Regarding Space at
DMC Rock Island

                                                                                                      , ,cv*b.*
                                    DEPARTMENT     OF THE ARMY                                                    $8.
                                         ROCK ISLAND ARSENAL                                   i**                  ‘\
                                     ROCK   ISLAND.   ILLINOIS   612SS.m

                                                                                                    a3 -.
               “CPL. m                                                                         ‘\         u      rr i
               nm.-llOl   w                                                                            w.9 ” #,‘\



   SiiCRI-co     (405-108)                                                                2 2 JAN 1993

   mORANDUbFORDirector, Defense Information Technology Services OYganitation,
                ATTNr Hr. Clyde E. Jeffcoat, 6760 E. Irvington Place,
                Denver, Colorado 80279-loo0

   SUBJECT
         : ‘Physical          Space at Rock Island Arsenal


   1.     Gn 19 January 1993, a Department of Defense (DOD)Data Center Consolidation
   Planning team met with Hr. Fred Dearborn, my Civilian Executive ASSiStMt.    The
   team 1;as visiting Rock Island to verify information previously provided to them
   repardiog physical support currently provided to the%xay Information Pro~eraing
  ‘,Center (AIPC)-Rock Island; specifically,   machine/office              space, electrical        powr
    and air conditioning availability   and capacities.

   2. During this meeting, the question of additional space %a~ discussed.
  ‘$ir. Dearborn stated that MPG-Rock Island is currently assigned 245,340 square
  ,feet of space.    Approximately ~OO,OW aquare feet of contiguous machine/office
   space is located on the first three floors of building 350. Hr. Dearborn also
   indicated there is approximately 220.000 square feet of additiooal first class,
   contiguous space available in the building, for example, 4th, Sch. and 6th
   floors.   If requesre#,  this additional 220,000 square feet could be reserved for
   the AIPC and made available within the year, brinSiog the total adjoining space
   in building 350 to over 420,OOUsquare feet.

   3. Please provide the name of your point of contact so w could make a formal
   presentation to you. My point of contact is Mr. John A. Ruble, Director.
   Directorate of Engineering and Housing. DSN 793-2120 or commercial
   (309) 782-2120.

   4. Also, tic have enclosed an information paper that describes the Arsenal’s
   facilities   and capabilities. Then, as a follow-up we are mailin you copies of
   a Rock Island Arsenal brochure and of the Quad Cities, the community in which lit
   are located.



                                                      ,.J1&d%.&
   Lncl                                                  TERRYL. NIENHOUSE
                                                         Colonel, OD
                                                         Coexaading




                                                         58
Appendix Q. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Industrial Affairs and Installations)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications & Intel)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department   of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force

Other Defense Agencies
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
   Director, Defense Information Systems Agency Western Hemisphere
   Director, Defense Megacenter Columbus
   Director, Defense Megacenter Mechanicsburg
   Director, Defense Megacenter Ogden
   Director, Defense Megacenter Oklahoma City
   Director, Defense Megacenter Rock Island
   Director, Defense Megacenter St. Louis
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                            59
Appendix Q. Report Distribution



Non-Defense Federal Organizations                   and Individuals
Director, Federal Emergency Management Agency
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security

Senator Tom Harkin, U.S. Senate
Congressman James A. Leach, U.S. House of Representatives




                                            60
Audit Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Paul J. Granetto
Wayne K. Million
Nicholas E. Como
Gopal K. Jain
Sheryl L. Jansen
Wei K. Chang
